No. _ _ _ __

3fn ~be
~upreme QCourt of tbe mntteb ~tate~
CHRISTOPHER MATHEW PAYNE,
Petitioner,

v.
THE STATE OF ARIZONA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPERIOR COURT OF ARIZONA,
PIMA COUNTY

APPENDICES TO PETITION FOR A WRIT OF CERTIORARI

CAPITAL CASE
Order, Pima County Superior Court No. CR20070973 ................. Appendix la
Amended Order Pima County Superior Court No. CR20070973 ............. Appendix 7a

Order, State v. Payne, No. CR-18-0120-PC, October 6, 2020,
Arizona Supreme Court. Denying Petition for Review ........... Appendix. 8a
Amended Opinion, State v Payne 314 P.3d 1239 (Ariz. 2013) ..... Appendix .. 9a
Constitutional provisions involved ......................................... Appendix 33a

LAURA E. UDALL
COOPER & UDALL
136 W. Simpson St
Tucson, Arizona 85701
Telephone: (520) 770-8714
ludall@cooperudall.com

MICHAEL J. MEEHAN

Counsel of Record

LAW OFFICE OF MICHAEL MEEHAN
3938 E. Grant Rd. No. 423
Tucson, AZ 85712
Telephone: (520) 529-1969
mmeehan.az@m n.com

FILED
TONIHELLON
CLERK, SUPERIOR COURT
2/6/2018 5:07:10 PM

ARIZONA SUPERIOR COURT, PIMA COUNTY
HON. RICHARDS FIELDS

CASE NO.

CR20070973-001

DATE:

February 6, 2018

STATE OF ARIZONA
Plaintiff,
vs.
CHRISTOPHER MATHEW PAYNE
Defendant.
RULING
IN CHAMBERS RE: PETITION FOR POST CONVICTION RELIEF
Petitioner, through counsel has filed a Petition for Post Conviction Relief pursuant to Rule 32 of the
Arizona Rules of Criminal Procedure alleging ineffective assistance of counsel at both the trial and the appellate
stages. The Court has reviewed the Petition, the State's Response, the Reply, the file, and the applicable
caselaw. This Court does not find that the Petitioner raised a colorable claim. Both parties used the statement
of facts lifted from the Arizona Supreme Court Mandate on Petitioner's appeal. And while those facts do not
provide any inkling as to alleged constitutional ineffectiveness of counsel, which this Court does not find, what
it does reveal is that no matter the challenged conduct, the Petitioner could never have been prejudiced. The
request for an Evidentiary Hearing is DENIED and the Petition Dismissed.

A colorable claim of post-conviction relief is "one that, if the allegations are true, might have changed
the outcome." State v. Jackson, 209 Ariz. 13, 14, 97 P.3d 113, 114 (Ariz.App. Div. 2, 2004) (quoting State v.
Runningeagle, 176 Ariz. 59, 63, 859 P.2d 169, 173 (1993)). To state a colorable claim of ineffective assistance

ofcounsel, Petitioner must show 1) that counsel's performance fell below objectively reasonable standards, and
2) that this performance prejudiced the defendant. Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80
L.Ed.2d 674 (1984); Jackson, 209 Ariz. at 14, 97 P.3d at 114. If a defendant fails to make a sufficient showing
on either prong of the Strickland test, the court need not determine whether the other prong was satisfied.
Jackson, 209 Ariz. at 14, 97 P.3d at 114; State v. Salazar, 146 Ariz. 540, 707 P.2d 944 (1985).

In order for a claim of ineffective appellate counsel to be colorable, the petition "must raise some
factors that demonstrate that the attorney's representation fell below the prevailing objective standards." State v.
Herrera, 183 Ariz. 642,905 P.2d 1377, (Ariz.App. Div. 1,1995). Jdat 647, 1382. "Additionally, the petitioner

Dani DuBois
Law Clerk

1a

RULING
Page 2

Date: February 6, 2018

Case No.: CR20070973-001

must offer evidence of a reasonable probability that but for counsel's unprofessional errors, the outcome of the
appeal would have been different." Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674
(1984); State v. Herrera, 183 Ariz. 642, 905 P.2d 1377.
In the Petition and in the Reply, Petitioner alleges that counsel were ineffective in keeping out
prejudicial evidence primarily by not stipulating to certain facts and secondarily by opening doors in the
mitigation phase. Petitioner also argues that counsel were ineffective in introducing a case for mitigation. The
prosecuting attorney has tried many cases in front of this Court, and the idea that she would have stipulated to
any facts that would have had an effect on keeping out such evidence is purely speculative, and not good
speculation at that.
Further, the idea that keeping out such evidence in the guilt-phase would have resulted in the Petitioner
being found not guilty of frrst degree murder is also purely speculative, and likewise not good speculation. Rule
32 Counsel for Petitioner vehemently argue that the guilt phase had no real defense. Concomitantly, any
evidence that would have been kept out of the guilt-phase would certainly have been introduced in the penalty
phase. Caselaw abounds that the prosecution cannot be forced to try their case in a sterile setting. State v.

Bracy, 145 Ariz. 520, 534, 703 P.2d 464, 478 (1985) quoting State v. Chapple, 135 Ariz. at 289-90, 660 P.2d at
1216.
Not all capital cases are created equal, nor are all cases with child victims, but this was one of
exceptional magnitude with exceptional aggravation and herein lies the problem for Petitioner's claims - this
Court cannot envision a claim that would have changed the outcome of trial, of sentencing, or of the appeal and the Petitioner has not established one. Petitioner has the burden of proof in establishing a claim of
ineffective assistance ofcounsel and with regard to the issue of prejudice, the proof"must be a demonstrable
reality rather than a matter of speculation." State v. Jackson, 170 Ariz. 89, 91-92, 821 P.2d 1374, 1376 1377 (Ariz.App.,1991) quoting State v. Meeker, 143 Ariz. 256,264,693 P.2d 911, 919 (1984). Petitioner has
not met this burden.

Preparation for Trial
The Court has properly considered the relevant portions of the affidavit of the Petitioner's expert
regarding what professional norms may be in the context of this case. This was a straightforward case. The
basic facts were not in dispute. For two or more months, Payne knowingly locked and left his two small
children in a closet, starving them until their eventual death, leaving his deceased daughter in the closet with his

Dani DuBois
Law Clerk

2a

RULING
Page 3

Date: February 6, 2018

Case No.: CR20070973-001

son (her brother) until he found his son dead, and then later transporting the bodies, at least one of them, to a
storage unit. Guilt was certain. While Rule 32 counsel vigorously disagree with some of the ultimate decisions
and strategies employed by trial counsel, no additional time in preparation would have changed the outcome
because there was little to dispute. Petitioner asserts that counsel were ineffective for not having constrained
him to plead to the indictment thereby preventing the jury from having to consider the graphic pictures and fates
of the children. While pleading to the indictment may have had the effect of having the jurors see the Petitioner
"acknowledge[ing] responsibility for the deaths of his children," the claim fails in that the State would have
nevertheJess presented the fates of the chiJdren in the aggravatfon phase in support of their aJleged aggravators.
This Court can foresee nothing that would have prevented the State from presenting the bulk of the negative
evidence. In hindsight, Counsel may have made better choices in their effort to put on any case, but ultimately
anything they could choose to present would result in opening areas better left untouched. These were strategic
decisions and Petitioner was not prejudiced - the outcome would have certainly been the same. Strickland,, 466
U.S. at 689, 104 S. Ct. at 2065, 80 L. Ed. 2d 674 (1984) ("A fair assessment ofattorney performance requires
that every effort be made to eliminate the distorting effects of hindsight, to reconstruct the circumstances of
counsel's challenged conduct, and to evaJuate the conduct from counsel's perspective at the time.")

Preparation for Mitigation Case
Rule 32 counsel likewise challenges the preparation of trial counsel for the mitigation phase. The
assertion is that witnesses were not called that would have portrayed Payne as a good kid and would have
humanized him. Rule 32 counsel further contend that experts could have been called to explain the damage that
extensive proJonged drug use, such as that engaged in by the Petitioner, would have affected his abiJity to
properly realize the consequences of his actions. The claim is that had this evidence been presented, the jury
would have mitigated Payne's sentence by giving him life. Petitioner supports this argument with well
documented secondary sources on how jurors choose life over death and the various influences over that
decision. However, aside from the experts, Petitioner's proposed witnesses would have provided very similar
testimony relative to his young life as occurred at trial. This would not have resulted in the preclusion of the
other testimony regarding Payne's drug use, his less than rosy interactions with his family while under the
influence of drugs, or the jail call. Counsel had to pick and choose what to present. Under the facts of this case,
everything that would be presented as mitigation would open a door to something unpleasant. There was no
way to avoid this. Counsel were not ineffective in choosing which witnesses to present, nor was Petitioner

Dani DuBois
Law Clerk

3a

RULING
Date: February 6, 2018

Page 4

Case No.: CR20070973-001

prejudiced by anything other than the actual circumstances of his adult life and his past actions which could not
be made to disappear retroactively by sleight of trial counsels' hand.

Issue of Parole

First, as aptly pointed out by the State, Simmons did not apply in Arizona at the time of Petitioner's trial
and was not the law of the State of Arizona until 2016. see e.g., State v. Cruz, 218 Ariz. 149, 160, 181 P.3d 196,
207 (2008); State v. Lynch, 238 Ariz. 84, 103, 357 P.3d 119, 138 (2015), rev'd. 136 S. Ct. 1818, 195 L. Ed. 2d
99 (2016) ("Because§ 13-703(A) permitted the possibiJity of Lynch obtaining release, refusing a Simmons
instruction was not error. See Benson, 232 Ariz. at 465156, 307 P.3d at 32. An instruction that parole is not
currently available would be correct, but the failure to give the Simmons instruction was not error."); overruled
by Lynch v. Arizona, 136 S. Ct. 1818, 195 L. Ed. 2d 99 (2016) (noting that the Defendant's future dangerousness
was put at issue). Trial Counsel could not have been ineffective in failing to request the jury instruction as
posited by Petitioner, nor could appellate counsel have been ineffective for not raising it at the appellate level.
Second, this was never a case about future dangerousness. In the most simple terms, it was a case where
the Petitioner stopped feeding two of his three children, and locked them in a closet until they died.
Dangerousness ended there - Payne would never again be able to starve his children until they died, their small
broken bodies having eventually liquefied in his care. This Court reviewed the transcripts of the closing
arguments in the penalty phase. The Prosecutor did not argue future dangerousness. At most, the prosecutor
argued that Payne's violent temper toward others negated one of the many mitigating factors offered by the
Defense that Payne was a non-violent child. Transcript Jury Trial, Day 27, March 30, 2009 pps. 45-58. She
certainly argued that the Defendant deserved as much mercy as he had shown his children. The jury agreed.
The Petitioner was not prejudiced by the court not giving a Simmons instruction.
Further, any potential claim of a Simmons error would be precluded. While this Court does not believe
it could have been raised at the appellate level based on the law in Arizona at that time, if it could have been
raised, then it is now precluded. see e.g. Garza v. Ryan, No. CV-14-01901-PHX-SRB, 2017 WL 105983, at *3
(D. Ariz. Jan. 11, 2017) ("Respondents also argue, correctly, that Lynch would not apply retroactively. Lynch
applies Simmons to an Arizona capital sentencing. In O'Dell v. Netherland, 521 U.S. 151, 167 (1997), the
Supreme Court rejected the argument that Simmons represented a "watershed" rule of criminal procedure that
would apply retroactively. Like Simmons, Lynch is procedural and non-retroactive. Therefore, Garza is not
Dani DuBois
Law Clerk

4a

RULING
Page 5

Date: February 6, 2018

Case No.: CR20070973-001

entitled to retroactive application of Lynch, and his claim fails to meet the exception to preclusion set out in
Rule 32. l(g).")
CONCLUSION
All Rule 32 counsel in this case are excellent, well-qualified and well-respected attorneys. This ruling
must note that. Rule 32 Defense counsel have done an admirable job of asserting Petitioner's post-conviction
rights and Ms. Chiasson filed an excellent response. However, in order to understand the deference to which
the Payne jury verdict is entitled, the reader must appreciate what those jurors were exposed to during the three
phases of trial. Sometimes reality is too abhorrent and ugly for words to properly portray. The facts cited by
the Arizona Supreme Court in their Mandate were not facts that came out because of ineffective assistance of
counsel, they came out because they were the undisputed history of the last two or more months of little Tyler
and Ariana's lives. Immersion into the reality of this case evokes images akin to Auschwitz or Treblinka. 1 The
suggestion that minor changes in trial strategy would fundamentally impact that verdict does not give due
deference to the considerations of this jury and is incongruous with the facts of this case. 2

This Court finds the claims not colorable. The reliefrequested is DENIED and the Petition
DISMISSED.
IT IS SO ORDERED this 6th day of February, 2018.

~~Isl
(ID: 717423df-8989-4497-a000-d136e8bdeda2)

cc:

Lacey Alexander Stover Gard, Esq.
Laura E. Udall, Esq.
Laura P Chiasson, Esq.

1

"Every single day that he didn't give them food, and water, and nurturance, he chose to become a killer. Every single day that he
watched them wither away, while he went out and got high, he chose to become a killer. When Ariana died and he took her cold,
lifeless body and put it back into the closet with Tyler, four-year-old Tyler, who was thin beyond words, suffering from a head wound,
undoubtedly traumatized beyond belief, and he put that little girl's body back in the closet with her brother who was still alive, and
chose not to get him help, despite knowing that his daughter has just died, he chose to become a killer." Transcript, Jury Trial, Day 27,
March 30, 2009 p. 70.
2
"As in Simmons, it is the "sheer depravity of [the defendant's] crimes, rather than any specific fear for the future, which induced the .
. . jury to conclude that the death penalty was justice." Lynch v. Arizona, 136 s.a. 1818, 1821 (2016)((Thomas, J. and Alito, J.
dissenting, quoting Simmons v. South Carolina, 512 U.S. 154, 181, 114 S.Ct. 2187, 2187 (1994) (Scalia, J., dissenting))

Dani DuBois
Law Clerk

5a

RULING
Page 6

Date: February 6, 2018

Case No.: CR20070973-001

Michael J. Meehan, Esq.
Attorney General - Criminal - Tucson
Clerk of Court -Appeals Unit
Clerk of Court - Criminal Unit
Office of Court-Appointed Counsel

Dani DuBois
Law Clerk

6a

FILED
TONIHELLON
CLERK, SUPERIOR COURT
2/8/2018 3:21:36 PM

ARIZONA SUPERIOR COURT, PIMA COUNTY
HON. RICHARD S FIELDS

CASE NO.

CR20070973-001

DATE:

February 08, 2018

STATE OF ARIZONA
Plaintiff,
vs.
CHRISTOPHER MATHEW PAYNE
Defendant.

RULING

IN CHAMBERS AMENDED RULING

In the interest of clarity, the Ruling on the Petition for Post Conviction Relief dated February 6, 2018, is
amended as follows.
This Court has reviewed all of Petitioner's claims finding them subsumed under the three main
categories to the same end - there could never have been any prejudice. To the extent that this Court did not
address each particularized claim individually, it is not because those claims were not fully and thoroughly
considered. However, in the context of this case, and in the context of the claims themselves, this Court did not
find it necessary to discard every claim individually when individually, and in combination, they did not
constitute sufficient grounds for relief.

IT IS SO ORDERED AMENDED this 8th day of February, 2018.

~

'ON.Rf

~ s/
ARDS.FIELDS

(ID: l 7fbl 7b0-l 84c-42ed-be4d-997fdb0846dc)

cc:

Lacey Alexander Stover Gard, Esq.
Laura E. Udall, Esq.
Laura P Chiasson, Esq.
Michael J. Meehan, Esq.
Clerk of Court - Appeals Unit
Clerk of Court - Criminal Unit
Dani DuBois
Law Clerk

7a

$>upreme <!Court
STATE OF ARIZONA
ROBERT BRUTJ.NEL

Cbie(Justitt

ARIZONA STA TE COURTS BUILDING
1501 WEST WASHING10N STREET, SUITE 402
PHOENIX, ARJ70NA 85007
TELEPHONE: (602) 452-3396

JANET JOHNSON

Oert. ortheCourt

October 7, 2020

RE:

STATE OF ARIZONA v CHRISTOPHER MATHEW PAYNE
Arizona Supreme Court No. CR-18-0230-PC
Pima County Superior Court No. CR20070973-001

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on October 6, 2020, in regard to the above-referenced
cause:

ORDERED: Petition for Review of Order Dismissing Petition for
Post-Conviction Relief= DENIED.

Janet Johnson, Clerk
TO:
Lacey Stover Gard
Laura P Chiasson
Michael J Meehan
Laura E Udall
Christopher Mathew Payne, ADOC 242196, Arizona State Prison,
Florence - Central Unit
Dale A Baich
Amy Armstrong
Timothy R Geiger
kj

8a

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

circumstances element of child abuse statute is an objective
factual inquiry, rather than an element for which mens rea
must be proven;

233 Ariz. 484
Supreme Court of Arizona.

The STATE of Arizona, Appellee,

evidence was sufficient to support child abuse conviction;

V.

Christopher Mathew PAYNE, Appellant.

evidence was sufficient to support finding of premeditated
murder;

No. CR-O9-OO81-AP.

I
Nov. 21, 2013.
Synopsis
Background: Defendant was convicted in the Superior
Court, Pima County, No. CR20070973, Richard S. Fields, J.,
of two counts of first degree murder, three counts of child
abuse, and two counts of concealing a dead body, and he
appealed.

prosecutor's comments about what defendant was going to
tell jury, taken in context, were not calculated to direct jurors'
attention to defendant's exercise of his Fifth Amendment
privilege;
instruction on statutory aggravating factor that defendant
committed one or more homicides during commission of
offense was not fundamental error; and
trial court's erroneous preclusion of evidence that defendant
was a good inmate, as mitigating factor in penalty phase of
capital murder case, was harmless.

Holdings: The Supreme Court, Berch, C.J., held that:

error in failing to afford defendant an opportunity to
rehabilitate juror under oath was not fundamental;
defendant failed to meet very heavy burden of proof necessary
to show presumed prejudice from pretrial publicity, required
for change of venue;

Affirmed.
Bales, V.C.J ., concurred in part and dissented in part and filed
opinion.

Attorneys and Law Firms

defendant was not in custody, for Miranda purposes, when he
attempted to invoke his right to counsel;
trial court did not abuse its discretion by finding that
defendant's statements were voluntary;
witness's testimony about defendant's girlfriend's threatening
to kill the children if defendant did not do something about
their behavior was not admissible either under present sense
exception or excited utterance exception to hearsay rule;
trial court acted within its discretion in precluding admission
of witness's testimony about defendant's girlfriend's prior
statements, threatening to kill children, because probative
value of testimony was substantially outweighed by a danger
of unfair prejudice;
trial court did not abuse its discretion by admitting evidence
of uncharged acts, namely that defendant sold heroin;

w

TLAW

I

9a

**1251 Thomas C. Horne, Arizona Attorney General, Kent
E. Cattani (argued), former Chief Counsel, Criminal Appeals/
Capital Litigation, Jeffrey A. Zick, Chief Counsel, Criminal
Appeals/Capital Litigation, Amy Pignatella Cain, Assistant
Attorney General, Tucson, for State of Arizona.

Lori J. Lefferts, Pima County Public Defender, Robert J.
Hirsh, former Pima County Public Defender, Frank P. Leto
(argued), Deputy Public Defender, Kristine Maish, Deputy
Public Defender, Tucson, for Christopher Mathew Payne.
Opinion

Chief Justice BERCH, amended opinion of the Court.
*496 'IJ l Christopher Mathew Payne was convicted of two
counts of first degree murder, three counts of child abuse, and
two counts of concealing a dead body, and was sentenced to
death for each murder. We have jurisdiction of this automatic

I

I

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

appeal pursuant to A1ticle 6, Section 5(3) of the Arizona

without his attorney. They then arrested him on an unrelated

Constitution and A.R.S. § 13-4031.

warrant.
1 8 At the station, Payne confessed to not obtaining help for

I. FACTUAL AND PROCEDURAL BACKGROUND

the children and allowing them to die in his care. Police never
found Tyler's body. In searching Payne's former apartment,

1

police found blood on the walls inside the closet, an opening
"We view the facts in the light most favorable to
sustaining the verdict." State v. Dann (Dann I), 205 Ariz.
557,562 ,J 2, 74 P.3d 231,236 (2003).

in the closet wall stuffed with feces and human hair, and
several patches of body fluids on the carpet.

1 2 Christopher Mathew Payne and his girlfriend, Reina

1 9 The State charged Payne and

Gonzales, starved and abused Payne's children, Ariana, age 3,

murder and other crimes. In exchange for testifying, the State

and Ty !er, age 4, until they died.

allowed Gonzales to plead guilty to two counts of second

Gonzales with first degree

degree murder, for which she was given concurrent 22-

13

Payne left Ariana and Tyler with Gonzales while he

year prison sentences. The jury found Payne guilty of three

worked, first driving for a medical transportation company

counts of child abuse, two counts of concealing a dead body,

and later selling heroin. Gonzales called Payne at work

and two counts of first degree murder. The jury also found

several times a day to complain about the children, even

three aggravating factors: especial cruelty, heinousness, or
depravity, A.R.S. § 13-75l(F)(6); multiple homicides, id. §

purportedly threatening to kill them if Payne did not make
them behave.

13-75l(F)(8); and young age of the victims, id. § 13-75l(F)
(9) . This automatic appeal followed the imposition of death

1 4 Payne began punishing Ariana and Tyler by locking them
in a closet while he was away. By late June 2006, the children

sentences for the two murders.

were kept in the closet permanently. Payne initially fed them
sandwiches once a day, but after about a month, he stopped

II. DISCUSSION 2

feeding them at all. Payne checked on the children perhaps
once a day, but he did not bathe them or let them out to use

2

the bathroom or get fresh air.
1 5 Sometime in August 2006, Payne discovered that Ariana
had died. He nonetheless left her in the closet with Tyler, who
was still alive. The next day, Payne stuffed Ariana's body into
a duffel bag, which he eventually put back in the closet with

Payne cites state and federal constitutional provisions
and raises several claims in passing without developing
arguments. We consider issues not argued to be waived
and therefore do not address them. See Ariz. R.Crim. P.
3 I. l3(c)(l )(vi) (requiring appellate briefs to "contain the
contentions ... with respect to the issues presented, and
the reasons therefor").

Tyler. Payne found Tyler dead approximately one week later.

A. Jury Selection

16

In mid-September, Payne put the children's bodies in a
blue tote box, which he placed in a rented storage unit. After

1 10 The Sixth Amendment to the United States Constitution
entitles a defendant to an impartial jury. State v. Velazquez,

Payne failed to pay the rental fee, staff opened the unit. They

216 Ariz. 300, 3061 14, 166 P.3d 91, 97 (2007). Payne argues

found only the tote inside, which they said smelled "really

that the trial court erred by dismissing some jurors improperly

bad," so they threw it in a dumpster. A staff member became
concerned about the smell and called the police two days later.

and failing to dismiss others.

1 7 The police found Ariana's partially decomposed body

I. Juror 49

inside the tote. She had twelve broken ribs, a broken spine,
and a broken shoulder. After finding Ariana's body, the police
did not search the dumpster *497

1 11 Based on Juror 49's responses to the juror questionnaire,

**1252 further. The

the trial court excused that juror because serving on the jury
would interfere with her school schedule. Prospective jurors

investigation led police to Payne and Gonzales, whom they
located at a motel. The officers asked Payne to accompany

"shall" be excused if serving on a jury would cause "undue or

them to the station to answer questions, but he refused to go

WF\ f l. l\.W

11

I

extreme physical or financial hardship," A.R.S. § 21-202(8)

I

)

10a

I \,

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

(4), or "undue or extreme hardship under the circumstances,"
id. § 21-202(8)(6). Payne initially expressed concern about
dismissing Juror 49 "without more questioning," but did not
object to her dismissal after the court explained the reasons
for dismissing her. We thus review the decision to strike Juror
49 for fundamental enor. See State v. Moody, 208 Ariz. 424,
449-50 1 85, 94 P.3d 1119, 1144-45 (2004); Stale v. Canez
(Canez I), 202 Ariz. 133, 1471 30, 42 P.3d 564, 578 (2002) .
1 12 In her questionnaire, Juror 49 said that service would
pose a substantial hardship because she was a student and had
classes on trial days. Payne claims there was discriminatory
intent in her dismissal, but points to no evidence of such
intent. Given the student's school-related conflict and lack of
evidence of discriminatory intent, the judge did not commit
fundamental error by excusing her.

2. Juror 74
1 13 The trial court dismissed Juror 74 for cause based on
hardship and her opposition to the death penalty. Juror 74's
questionnaire stated that she belonged to a group advocating
the abolition of the death penalty, would never vote to impose
it under any circumstances, and was personally, morally, or
religiously opposed to capital punishment. She also indicated
that serving would cause undue hardship because she planned
to accompany her elderly parents to the east coast twice
during the scheduled trial period. Over Payne's objection, the
trial court dismissed the juror without affording Payne an
opportunity to rehabilitate her. We review this ruling for an
abuse of discretion. See State v. Dann (Dann Ill), 220 Ariz.
351,362135, 207 P.3d 604,615 (2009) .
1 14 A week after dismissing Juror 74, the court informed
counsel that it wanted to bring her in for questioning in light
of State *498 **1253 v. Anderson (Anderson I), 197 Ariz.
314, 324 1 23, 4 P.3d 369, 379 (2000) . The court arranged
a conference call with Juror 74. She was not under oath
for the call, which occurred while she was in an Alabama
airport between flights. When asked if she could set aside her
feelings about the death penalty, she responded, "I cannot, I
cannot participate in a process that allows the State to initiate
death." She reiterated this view several times in response to
questions from the court and counsel. She also affirmed that
she planned to be out of town twice during trial to accompany
her parents while they traveled. She had also accepted a job
in Florida after being dismissed from the jury panel. Over
Payne's objection, the court again dismissed Juror 74.

WESIL W

1 15 A prospective juror who will automatically vote for or
against the death penalty or will suffer a hardship may be
removed for cause. A.R.S. § 21-202(8)(4)(c); State v. Speer,
221 Ariz. 449, 454-55123, 212 P.3d 787, 792-93 (2009). We
find no error in the court's dismissal.
1 16 Despite Juror 74's seemingly settled position on the death
penalty and her travel plans, the trial court erred by failing
to afford Payne an opportunity to rehabilitate her under oath.
See Ariz. R.Crim. P. 18.5(d) (providing that upon request, the
court "shall permit that party a reasonable time to conduct a
further oral examination of the prospective jurors"). Although
defense counsel was able to ask rehabilitating questions
during the telephonic conference, Juror 74 was not then under
oath. Citing Anderson I, Payne argues that this constituted
fundamental or structural enor.
1 17 But while Anderson I found the dismissal of jurors
without adequate questioning to be structural error, the jurors
there had expressed only equivocal objections to the death
penalty and the defendant was not afforded any opportunity
to rehabilitate them. 197 Ariz. at 3 19 1 10, 324 1 23, 4 P.3d
at 374, 379. Here, in contrast, defense counsel was permitted
to telephonically question the single juror who stated her
unequivocal opposition to the death penalty.

,i 18 Juror 74's objections to the death penalty remained
definite and unshakable, and her telephonic responses
remained consistent with those on her questionnaire. That
questionnaire states that the responses "have the effect of
a statement given to the Court under oath." Given these
circumstances, the error was not fundamental or structural,
nor did it prejudice Payne.

3. Juror 146
119 Payne argues that the trial court erred by dismissing Juror
146 for cause based on her objections to the death penalty
because, in response to another question, she indicated that
she could follow the law. Juror 146's questionnaire indicated
that she was personally, morally, or religiously opposed to
the death penalty and would never vote for it under any
circumstances. She also stated that she could not vote for a
death sentence even if she felt it appropriate after hearing
the evidence, instructions, and deliberating. Yet in response
to other questions, she indicated that she would follow

11a

f\

I

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

instructions and keep an open mind regarding aggravating and
mitigating circumstances.
,i 20 After the process was explained, she said, "I cannot be

responsible for putting a person to death even if they met
[the] qualifications." When asked if she could vote to impose
death if the law required, she said that she would follow
instructions, but would not like it and would not "be okay with
it emotionally." The judge noted that while Juror 146 said she
would follow the law, he was concerned about her ability to
be fair. The court granted the State's motion to strike her for
cause.

,i 21 Although a "general objection to the death penalty is
not sufficient to create a presumption that a prospective juror
is unfit because of bias to sit on the panel," Anderson I, 197
Ariz. at 318 ,i 6, 4 P.3d at 373 (discussing Witherspoon v.
llfinois, 391 U.S. 510, 88 S.Ct. 1770, 20 L.Ed.2d 776 (1968)),
if a prospective juror's views would "prevent or substantially
impair the performance of [her] duties," the court should
strike the juror for cause, *499 **1254 Wainwright v. Witt,
469 U.S. 412,424, 105 S.Ct. 844, 83 L.Ed.2d 841 (1985).

,i 24 Payne claims that the trial court abused its discretion by
refusing to strike Jurors 66, 71, 138, 152, and 153 for cause,
requiring Payne to use peremptory challenges to remove
them. Payne has failed to show that any of these jurors was so
biased that it was an abuse of discretion to deny his motions
to strike. See Stale v. Dickens, 187 Ariz. 1, 11, 926 P.2d 468,
4 78 ( 1996) (defendant must show juror "was biased and could
not reasonably render a fair or impartial verdict"), abrogated
on other grounds by State v. Ferrero, 229 Ariz. 239, 24243 ,i,i 15, 20, 274 P.3d 509, 512-13 (2012) . The responses
given by each juror provided the trial court a reasonable basis
for concluding that each could remain impartial. Moreover,
none of these jurors actually sat on the jury panel, making any
error harmless. See State v. Hickman, 205 Ariz. 192, 198 ,i 28,
68 P.3d 418, 424 (2003) (finding curative use of peremptory
challenge subject to harmless error review).

B. Venue
,i 25 Payne asse11s that the trial court erred by denying his

request for a change of venue based on presumed and actual
prejudice.

,i 22 Juror 146's responses were sufficient to pe1mit the judge
to conclude that she could not be fair and impartial. See Stale
11 Glassel, 211 Ariz. 33, 49-50 ,i,i 53-55, 116 P.3d 1193,

1. Presumed prejudice

1209-l O(2005) (affirming decision to strike a juror for cause
who stated she could not make the decision to put someone
to death despite her attestation that she would be "fair and
impartial"). Therefore, the decision to dismiss Juror 146 was
not an abuse of discretion.

126 Payne first claims that the trial court erred by denying his
request for a change of venue based on pre-trial publicity. We
review a trial court's ruling on a motion for change of venue
for an abuse of discretion. State v. Cruz, 218 Ariz. 149, 156 ,i
12, 181 P.3d 196,203 (2008).

4. Refusing lo strike jurors

,i 23 Payne claims that the trial court abused its discretion
by refusing to strike Jurors 18, 28, 100, and 103, who were
impaneled and deliberated, and Juror 94, who was designated
an alternate. Although these jurors' questionnaires expressed
pro-death penalty views or acknowledged media exposure or
special feelings about child victims, the State rehabilitated
them, with each stating that he or she would disregard
personal feelings and follow the law and would not impose
the death penalty if not appropriate. Thus, the trial judge did
not abuse his discretion in refusing to strike these jurors.

5. Peremptory challenges

'.

I

(

I' I

,i 27 Approximately two months before the trial, Payne
requested a change of venue based on adverse and excessive
media coverage. He filed more than 200 newspaper and
broadcast reports that mentioned his case. The trial court
denied the motion, noting that much of the publicity criticized
CPS and most articles about the facts had appeared long
before trial. Payne did not renew his motion during trial.
,i 28 A defendant is entitled to change the venue for his trial
"if a fair and impartial trial cannot be had." Ariz. R.Crim.
P. 10.3(a). To show presumed prejudice, a defendant must
show that the publicity "was so extensive or outrageous
that it permeated the proceedings or created a carnival-like
atmosphere." State v. Blakley, 204 Ariz. 429,434 ii 14, 65 P.3d
77, 82 (2003) (internal quotation marks omitted) (quoting
State v. Atwood, 171 Ariz. 576, 631, 832 P.2d 593, 648
( 1992)). The publicity must be so prejudicial that the jurors

12a

\ I

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

grounds by Nordstrom, 200 Ariz. at 241 ,i 25, 25 P.3d at 729.
Throughout voir dire and after the jury was sworn, the trial
court admonished the jury to avoid coverage and report any
exposure.

could not decide the case fairly. State v. Nordstrom, 200 Ariz.
229,239 ,i 15, 25 P.3d 717, 727 (2001), abrogated on other
grounds by Ferrero, 229 Ariz. at 243 ,i 20,274 P.3d at 513. We
examine whether the publicity was chiefly factual and noninflammatory and the amount of time between the coverage
and trial. See State v. Davolt, 207 Ariz. 191,206 ,i 46, 84 P.3d
456, 471 (2004).

,i 33 Payne attempts to show that events at trial tainted
the objectivity of the jurors. He highlights several allegedly
prejudicial events: a spectator's statement, which occurred in
a hallway with no jurors present, that Payne was a "monster"
who should "fry"; a cameraman's utterance of"what the f4' * *
" in response to a camera problem, an utterance heard only by
Payne's counsel and a deputy; and blogging by two witnesses
during the trial, mostly discussing the victims' mother. Payne
fails to connect these isolated events to actual prejudice or
bias of any jury member.

,i 29 Media coverage of Payne's case was substantial. Several
reports included prejudicial *500 **1255 information,
including Payne's criminal history, allegations that Payne
victimized Gonzales, and graphic descriptions of Ariana's
remains. Furthermore, several comments in internet news
articles proclaimed Payne's guilt and advocated extra-judicial
punishment. But most of the coverage appeared more than
a year before trial, contained facts later substantiated by
evidence at trial, and repeated a basic description of the
crime that mirrored indictment allegations. See Nordstrom,
200 Ariz. at 240 ,i 17, 25 P.3d at 728 (no presumed
prejudice despite "troubling publicity" that appeared "many
months before trial" where "much of the information" was
"presented ... as evidence" at trial). And the court exercised
discretion and gave instructions to prevent potentially
harmful coverage from infecting the venire.

,i 34 Finally, Payne argues that actual prejudice was shown by
the court's directive to jurors that they remain on one floor to
avoid the media and witnesses. Such admonitions, however,
are precisely the type of prophylactic measures courts should
take to avoid tainting the jury. See Nordstrom, 200 Ariz. at
240 ,i,i 18-19, 25 P.3d at 728 (finding insufficient evidence
of actual prejudice to justify a change of venue and noting
admonition to jurors to avoid media exposure). Thus, Payne
has failed to show actual prejudice.

,i 30 Payne has failed to meet the " 'very heavy' burden" of
proof necessary to show presumed prejudice. Cruz, 218 Ariz.
at 157,i,i 17, 20,181 P.3d at 204.

C. Post-Arrest Statements
,i 35 Payne argues that the trial court erred by refusing to
suppress his post-arrest statements, which he claims violated
Miranda and were involuntary. We review rulings admitting
a defendant's statements for an abuse of discretion. State v.
Newell, 212 Ariz. 389,396 ,i 22 & n. 6, 132 P.3d 833,840 &
n. 6 (2006).

2. Actual prejudice
,i 31 Payne alternatively claims that even if prejudice
is not presumed, he has shown actual prejudice. Actual
prejudice is established by showing that sittingjurors "formed
preconceived notions concerning the defendant's guilt." State
v. Chaney, 141 Ariz. 295,302,686 P.2d 1265, 1272 (1984).
Mere knowledge of or opinions about the case do not
disqualify a juror who can set them aside and decide based on
the evidence presented at trial. Cruz, 218 Ariz. at 156-57 ,i
14, 181 P.3d at 203-04. Payne has not shown actual prejudice
among the sitting jurors.

,i 36 When the police officers first encountered Payne at a
motel, they told him they were investigating a crime and
asked if he would accompany them to the station to answer
questions. Payne refused to go without his lawyer. The police
then arrested him on an unrelated misdemeanor warrant.
Once at the station, they put Payne in an interrogation room.
He waited approximately thirty minutes, during which time
he yelled, banged his handcuffs on the table, kicked the
wall, and asked to use the restroom, which he was allowed
to do. In response to the noise, *501 **1256 Detective
Walker opened the door to check on Payne. He did not
intend to interrogate Payne then, but Payne insisted that
questioning begin immediately. So Detective Walker read
Payne his Miranda rights, which Payne waived. Eventually,

,i 32 Of the twelve jurors who deliberated, seven reported
exposure to media reports. Five of the seven reported "very
little" exposure, and all seven assured the court they could
disregard it. See Atwood, 171 Ariz. at 632, 832 P.2d at 649 (no
prejudice where half ofjurors had "minimal" media exposure,
but indicated it would not interfere), disapproved of on other

WE TLAW

u

,

.lf

•

I

JI

I

13a

I

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

Payne admitted that the victims died in his care and that he
concealed their bodies in the storage facility.

l. Right to counsel

,i 3 7 Payne claims that he clearly and unambiguously invoked
his right to counsel when police first encountered him outside
of the motel. Citing Edwards v. Arizona, 451 U.S. 477,
484-85, 101 S.Ct. 1880, 68 L.Ed.2d 378 (1981), he asserts
that once a suspect in custody invokes his Miranda right to
counsel, police may not interrogate him until he has counsel
or he reinitiates the contact.
,i 38 Assuming that Payne did request counsel outside
the motel, the question arises whether his invocation was
effective. Miranda rights generally cannot be invoked unless
the suspect is in police custody. See McNeil v. Wisconsin, 50 l
U.S. 171, 182 n. 3, 111 S.Ct. 2204, 115 L.Ed.2d 158 (1991).
In McNeil, the Court noted that it had "in fact never held that
a person can invoke his Miranda rights anticipatorily, in a
context other than 'custodial interrogation.' " Id Although
Arizona courts have never had occasion to address the issue,
other jurisdictions have relied on this language from McNeil
to conclude that a non-custodial, anticipatory invocation of
rights is not effective. See, e.g., United States v. LaGrone,
43 F.3d 332,339 (7th Cir.1994); Alston v. Redman, 34 F.3d
1237, 1249 (3d Cir.1994); United Stales v. Wright, 962 F.2d
953,955 (9th Cir.1992) ("The [Supreme] Court has never held
that Miranda rights may be invoked anticipatorily outside the
context of custodial interrogation; we see no reason, apart
from those already rejected in McNeil, to do so here."). We
reach a similar conclusion.
,i 39 Payne was not in custody when he attempted to invoke
his right to counsel because, other than the presence of
police, he had no reason to "feel deprived of his freedom of
action." See State v. Stanley, 167 Ariz. 519, 523, 809 P.2d
944, 948 (1991); see also State v. Carter, 145 Ariz. 101,
105-06, 700 P.2d 488, 492-93 (1985) (inherently coercive
nature of speaking to police is insufficient). The police had
not indicated that he was suspected of committing a crime,
had not told him he was under arrest, and had not drawn their
guns. Moreover, Payne felt free to refuse to accompany them.
Thus, Payne's initial invocation was ineffective.

2. Right to silence

II I

,i 40 Payne also claims that he invoked his right to silence
during the interrogation. An invocation of the right to silence
must be unequivocal and unambiguous, as judged from the
perspective of a reasonable officer under the totality of
the circumstances. State v. Cota, 229 Ariz. 136, 144-45
,i 26, 272 P.3d 1027, 1035-36 (2012). If an invocation is
ambiguous or equivocal, "the police are not required to end
the interrogation ... or ask questions to clarify whether the
accused wants to invoke his or her Miranda rights." Berghuis
v. Thompkins, 560 U.S. 370, 130 S.Ct. 2250, 2259--60, 176
L.Ed.2d 1098 (2010). During the interrogation, the following
exchange occurred:
PAYNE: ... you know what man, I don't wanna talk
anymore[.] [C]an I call my father[;] can I get my one phone
call?
WALKER: Your father is still in [a] plane.
PAYNE: Well let me call my sister, and then my step-sister,
just to let them know that, what the P' * * is goin' on, and
then I'll talk, man. I don't know what the P' * * you wanna
get outta me, but I'll talk.

,i 41 A reasonable officer in these circumstances could find
Payne's request ambiguous or equivocal because he indicated
that he would talk after he spoke with a family member.
Therefore, the trial court did not abuse its discretion in finding
no violation of Miranda and admitting Payne's statements.

3. Voluntariness

,i 42 Payne argues that his statements were involuntary
because he relied on promises made by the police and
was suffering from heroin withdrawal when he confessed.
Trial courts presume confessions to be *502 "*1257
involuntary, State v. Ross, 180 Ariz. 598,603, 886 P.2d 1354,
1359 (1994), but we review a trial court's ruling on a motion
to suppress for an abuse of discretion, State v. Hausner, 230
Ariz. 60, 70 i/ 23,280 P.3d 604, 614 (2012).
,i 43 The effect of withdrawal from drugs does not render
a confession involuntary unless the suspect "is unable to
understand the meaning of his statements" or cannot reason
or comprehend what is happening. State v. Laffoon, 125
Ariz. 484,487, 610 P.2d 1045, 1048 (1980) (citing State v.
Arredondo, 111 Ariz. 141, 145, 526 P.2d 163, 167 (1974)).
Payne reported being cold and sick, asked for methadone,
and vomited at the end of the interrogation. EMTs evaluated

14a

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

Payne, however, and concluded that his vital signs were
normal. He clearly understood and followed the questioning,
consistently denied police assertions, and presented facts in a
light favorable to himself.

,i 44 Payne also argues that he confessed because police said
they would let him speak with Gonzales. See State v. Ellison,
213 Ariz. 116, 127 iJ 30, 140 P.3d 899,910 (2006) (noting that
promises and coercion may render statements involuntary).
Courts examine the totality of the circumstances to determine
whether the suspect's will was overborne by police conduct.
Stanley, 167 Ariz. at 523-24, 809 P.2d at 948--49. Although
police did tell Payne he could talk with Gonzales, he did not
show that this was a promise or quid pro quo for talking,
that he relied upon the statement, or that the police overbore
his will. The circumstances indicate otherwise: Payne made
his admissions at times far removed from any promises
regarding Gonzales, and after Payne's initial incriminatory
statements, Payne denied disposing of Tyler's body in a
different location, denied abusing the children, and denied
murdering the children to avoid paying child support. See
Newell, 212 Ariz. at 400 ,i 50, 132 P.3d at 844 (noting that
continued denials were evidence that defendant's will was not
overborne).
,i 45 For these reasons, we conclude that the trial court did not
abuse its discretion by finding that Payne's statements were
voluntary.

D. Exclusion of Hearsay
,i 46 Payne contends that the trial court erroneously prevented
him from presenting evidence regarding Gonzales's threats
to "kill" the children if he did not do something about their
behavior. The statements he wished to introduce were: "You
got to do something about these fl' * *ing kids. You got to
shut these fl' * *ing kids up or I'm going to fl' * *ing kill
them." Payne sought to introduce these statements through the
testimony of Debra Reyes, who sold heroin with Payne and
overheard phone calls in which Gonzales screamed at Payne
and threatened to kill the children.

,i 47 The State moved to preclude these statements on hearsay
grounds and because they would open the door to testimony
that Gonzales wanted to help the children but feared reprisals
from Payne. At Payne's request, the court had previously
precluded evidence about threats and domestic abuse between
Payne and Gonzales.

W STlAW

: lJ

' I

u

• 11 II

,i 48 Payne argues that Gonzales's statements qualify as
present sense impressions under Arizona Rule of Evidence
803( 1) and excited utterances under Rule 803(2). Payne
asserts for the first time that they also qualify as party
admissions under Rule 80 I ( d)(2), statements of existing
mental, emotional, or physical condition under Rule 803(3),
and statements against interest under Rule 804(6)(3). The
court precluded the statements "on the basis of the record,"
ruling that Payne could call Gonzales and Reyes, but could
not ask Reyes about Gonzales's threats to kill the children.
,i 49 Out of court statements offered to prove the truth of
the matter asserted are hearsay and are inadmissible unless
they fall within an exception to the hearsay rule. Ariz. R.
Evid. 80l(c)-(d), 802. We review the rulings on those grounds
that Payne raised at trial for an abuse of discretion, State
v. Chappell, 225 Ariz. 229,238 iJ 28,236 P.3d 1176, 1185
(2010), and review de novo constitutional issues and the
meaning of the rules of evidence, State v. Hansen, 215 Ariz.
287, 289 ,i 6, 160 P.3d 166, 168 (2007). We review those
issues that Payne did not raise at trial for fundamental etTor.
**1258 *503 See Stale v. Henderson, 210 Ariz. 561, 567
iJ 19, 115 P.3d 601, 607 (2005) .
,i 50 To qualify as a present sense impression under Rule
803(1), a statement must "describ[e] or explain[] an event or
condition" while the viewer is perceiving it or immediately
thereafter. Payne argues that Reyes was perceiving Gonzales's
fiustration with the children. But the statement at issueGonzales's threat to kill the children-was not the sense
impression. Nor did the statement qualify as an excited
utterance under Rule 803(2). That rule requires that the
statement "relate[] to a startling event or condition." The trial
court did not abuse its discretion by finding that the statement
did not qualify as an excited utterance because no startling
event or condition had occurred.
,i 51 Under Rule 80l(d)(l)(A), a statement is not hearsay if
the "declarant testifies and is subject to cross-examination
about a prior statement, and the statement ... is inconsistent
with the declarant's testimony." Gonzales testified at trial,
and Payne made an offer of proof in which Gonzales denied
making the statements. Reyes's testimony about Gonzales's
prior statement qualified under this rule.

,r 52 But trial courts have discretion to exclude otherwise
admissible evidence "if its probative value is substantially
outweighed by a danger of ... unfair prejudice, confusing the
issues, misleading the jury, undue delay, wasting time, or

15a

I,

l

JV

I

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

needlessly presenting cumulative evidence." Ariz. R. Evid.
403 . Introducing Gonzales's statements through Reyes would
have raised collateral issues, such as whether the threats
actually evidenced any intent to harm the children, and
implicated even more peripheral issues such as Gonzales's
fear of Payne and evidence of past abusive incidents
between Payne and Gonzales. The trial court had previously
granted Payne's motion to preclude evidence of any abuse
of Gonzales. The trial court acted within its discretion in
precluding the admission of Gonzales's statements through
Reyes because they might have caused confusion and
wasted time. Moreover, other evidence presented at trial
amply showed Gonzales's exasperation with the children,
including Gonzales's testimony that she often called Payne
to yell about the children and Reyes's testimony about
witnessing similar frustrations. Furthermore, the jury knew
that Gonzales was incarcerated for her involvement in the
murders. Therefore, the precluded testimony was cumulative,
and for this additional reason, the trial court did not abuse its
discretion by excluding it.

,r 57 The court found the nature of Payne's job required that
he remain away from home for long hours. This motivated
him to lock his children in the closet to appease Gonzales.
Thus the court found the evidence *504 **1259 probative
of motive. To attempt to minimize prejudice, the court
admonished the State "to limit the number of times ... the
issue [was] brought up, and not use racy words." The State
mentioned in its opening statement and closing argument that
Payne "started dealing drugs" and was " working with" a
heroin dealer. Payne himself also mentioned several times
in his opening statement and closing argument that he sold
heroin. In its final instructions, the court instructed the jury
not to consider evidence of drug use or sales for character
purposes or as a basis for determining that the defendant
committed the charged offenses.

that the children were malnourished, abused, kept in a closet,
and ultimately died in Payne's care. Even if the jury had
heard and believed that Gonzales threatened to kill the
children, there was ample evidence that Payne abused and
premeditatedly murdered them by failing to help them.

,r 58 Evidence ofuncharged acts may not be admitted to prove
bad character or that, because a defendant did one bad act, he
likely engaged in other bad acts. Ariz. R. Evid. 404(b). But
such evidence may be admitted to prove other issues, such
as motive, opportunity, or lack of mistake or accident. Id;
see Ferrero, 229 Ariz. at 241 ,r 5, 274 P.3d at 511. When
other act evidence is admissible but prejudicial, the trial court
must "limit the evidence to its probative essence (motive) by
excluding irrelevant or inflammatory detail." State v. Hughes,
189 Ariz. 62, 70, 938 P.2d 457,465 (1997).

,r

,r 59 The trial court did attempt to limit the prejudice here and

,r 53 Furthermore, the record contained substantial evidence

54 Because we find no abuse of discretion in excluding
Reyes's testimony regarding Gonzales's statements, we do not
address the hearsay exceptions not raised at trial, which would
be subject to fundamental error review.

,r

55 Payne also contends that excluding this testimony
violated his constitutional rights to due process and
compulsory process. But the analysis for these claims
parallels our Rule 403 analysis, focusing on the probative
value and prejudicial effect of the evidence. See United States
v. Cruz-Escoto, 476 F.3d 1081, 1088 (9th Cir.2007). As such,
the exclusion of this evidence did not violate due process or
compulsory process rights.

E. Admission of Evidence of Heroin Sales
,r 56 Payne asserts that the trial court inappropriately admitted
evidence that he sold heroin. He claims that this was unduly
prejudicial because it encouraged the jury to convict him for
uncharged bad acts. We review the admission of evidence for
abuse of discretion. State v. Robinson, 165 Ariz. 51, 56, 796
P.2d 853,858 (1990).

tl,

1

did not abuse its discretion. Each time the State mentioned
the heroin sales, it did so to explain why Payne was away
from home for long periods. 3 The evidence was relevant to
the State's theory that Payne locked the children in the closet
so he could stay away from home without interruption from
Gonzales's calls.
3

Prosecutors and courts should tread carefully in areas that
may affect the fairness of a criminal trial. A defendant
might also spend long hours away from home while
working as a lawyer or stockbroker. For that reason,
trial judges should carefully scrutinize requests to admit
prejudicial evidence. In this case, we cannot say that the
judge's ruling was an abuse of discretion, but the issue
is close. The judge's limiting instructions helped prevent
an abuse.

,r 60 Finally, the trial court did find

that the probative value
of the evidence was not substantially outweighed by its
prejudicial effect. The jury heard evidence that Gonzales and

16a

I

I•

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

Payne used heroin, marginalizing any prejudicial effect from
evidence that Payne was absent because he was out selling it.

F. Jurors Seeing Payne in Restraints
161 Relying on Deck v. Missouri's holding that routine use
of visible shackles on a defendant is "inherently prejudicial,"
see 544 U.S. 622, 628, 125 S.Ct. 2007, 161 L.Ed.2d 953
(2005), Payne contends that the trial court erred by denying
his motion for a mistrial or to designate jurors as alternates
after they saw Payne in restraints outside the courtroom.
Mistrial is an extraordinary remedy for trial error "and should
be granted only when it appears that justice will be thwarted
unless the jury is discharged and a new trial granted." Speer,
221 Ariz. at 462172, 212 P.3d at 800 (quoting Dann I, 205
Ariz. at 5701 43, 74 P.3d at 244). We review the trial court's
rulings for abuse of discretion. State v. Adamson, 136 Ariz.
250, 260, 665 P.2d 972, 982 (1983) (mistrial); State v. Bible,
175 Ariz. 549,574,858 P.2d 1152, 1177 (1993) (designation
ofjurors).

1 62

During trial, Juror E told the court that, while in a
restricted-access hallway, he saw Payne in an elevator with
three officers and a "cage." The jurors had been wondering
what the elevator was used for, so Juror E told Juror F that the
elevator was used to transport "prisoners." Upon questioning,
Juror E assured the court that the incident would not affect
his ability to remain fair and impartial. Juror F gave similar
assurances. The court denied Payne's motion for a mistrial
or to designate Jurors E and F as alternate jurors, noting that
jurors would not be "surprise[d]" to know that Payne was
in custody, in part because they were to see a video of him
wearing restraints the next trial day.

believed that the other juror, Juror N2, was not looking in
their direction, but even if so, would not have seen Payne's
shackles because Payne was standing behind the officers.
Payne pointed out that he was taller than the deputies and
so could easily have been seen. The trial court declined to
designate Juror N2 an alternate, noting that Payne was not
"wear[ing] shackles on his head."
165 Payne relies on cases holding that routine use of visible
shackles is "inherently prejudicial" and obviates the need for
a showing of prejudice. See Deck, 544 U.S. at 635, 125 S.Ct.
2007. But brief, inadvertent juror exposure to the defendant
in shackles outside the courtroom does not rise to the same
level. See Speer, 221 Ariz. at 462--63 174,212 P.3d at 80001. Payne must therefore show actual prejudice, see id. 172,
which the record does not reflect.

1 66 During voir dire by Payne, Jurors E and F, who
deliberated after seeing Payne in restraints, assured the court
that the incident would not affect their ability to be fair and
impartial. Their "brief and inadvertent exposure" outside the
courtroom was not inherently prejudicial. See State v. Apelt,
176 Ariz. 349, 361, 861 P.2d 634, 646 (1993) (affirming
denial of new trial where four jurors saw defendant in
shackles and handcuffs being escorted from courthouse).
Payne has not pointed to any evidence that jurors were
prejudiced. And, as the trial court observed, it is highly
unlikely that any juror would have been surprised that Payne
was in custody. Thus, Payne has not established actual
prejudice.

G. Child Abuse Charges

1 67 Payne makes four claims related to his child abuse
1 63 Several days later, another juror, Juror W, passed the
same elevator when Payne and deputies were inside and the
doors were open. When the trial court asked Juror W whether
he saw anything he was not supposed to see, Juror W said
he did not think so. The court did not question him further
because it did not want to suggest an answer. Payne renewed
his motions, which the court *505 **1260 again denied.
The court nonetheless admonished the deputies to exercise
more caution when transporting Payne. Before the court
selected alternates, Payne renewed his motion to designate
Jurors E, F, and W as alternates, but the court again denied
the motion.
1 64 A third incident occurred when the deputies opened
the door of the elevator as two jurors walked by. Juror
Nl was dismissed randomly as an alternate. The deputies

W

TLAW

fl

ti,

tu

,

I

convictions, which are addressed in turn below.

1. Mens rea of "circumstances"
1 68 Payne asserts that the trial court erroneously prohibited
him from arguing to the jury that the State must prove that he
abused the children ''under circumstances [that he intended or
knew were] likely to cause death or serious physical injury."
This, he claims, turned child abuse into a strict liability
offense and, as a result, the court erred in instructing the jury
on the elements of child abuse. We review de novo statutory
interpretation issues, Stale v. Armstrong (Armstrong TII), 218
Ariz. 451,463 154,189 P.3d 378, 390 (2008), and whether

17a

)\

r ,J\J

I

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

jury instructions properly state the law, State v. Johnson, 212
Ariz. 425,431 ,r 15,133 P.3d 735,741 (2006).

found the "care and custody" element of § I 3-3623(A) to be
an objective factual inquiry rather than an element for which
mens rea must be proven. See State v. Jones, 188 Ariz. 388,
393-94, 937 P.2d 310, 315-16 (1997) .

,r

69 Section 13-3623(A) makes it crime, "[u]nder
circumstances likely to produce death or serious injury," for
a person to cause physical injury to a child or to permit the
injury of a child in the person's care or custody. This offense
is a class 2 felony "[i]f done intentionally or knowingly." Id §
13-3623(A)(l). Payne contends that, in order to convict him
of child abuse as a class 2 felony, in addition to showing that
he intended to cause or knew that he would cause (or permit)
injury, the State had to show that he intended or knew that
the "circumstances were likely to produce death or serious
injury." Payne thus contends that the intentional or knowing
mens rea requirement applicable to the other elements of child
abuse also applies to the circumstances component. The trial
court rejected Payne's construction and instructed the jury
that the State must prove "that the defendant committed child
abuse in at least one of the three possible manners ... , and
that [his actions occurred] under circumstances likely to cause
death or serious physical injury" to the children.

,r 71

Moreover, the statute increases the offense level based
on the actor's intent: If the offense is "done intentionally or
knowingly," it becomes a class 2 felony. A.R.S. § 13-3623(A)
(1) . It is a lesser offense if done negligently or recklessly.
See id § (A)(2). The structure of the statute thus suggests
that the mens rea refers to the act that the defendant "does,"
and not to the background circumstances. Because we find
that the circumstances clause is more like the "care and
custody" provision, we decline to apply the means rea to the
circumstances clause.

,r 72 Payne argues that such an interpretation turns child abuse
into a strict liability crime. But a statute creates a strict liability
crime only if it does not require any mental state. Williams,
144 Ariz. at 488, 698 P.2d at 733. That is not the case here,
as § 13-3623(A) requires at least criminal negligence for the
act itself, and the section under which Payne was charged, §
13-3623(A)(l), requires knowledge or intent.

,r

70 Jf a statute requires a mental state, it applies to each
element of the offense unless it "plainly appears" that the
legislature intended otherwise. A.R.S. § 13-202(A). The
questioned portion of § 13-3623(A) (the "circumstances
*506 **1261 clause") provides that abuse must occur
"[u]nder circumstances likely to produce death or serious
physical injury." We have not addressed whether any mens
rea requirement applies to this phrase, but our court of appeals
has upheld convictions based solely on objective evidence
of the existence of such circumstances, without requiring the
state to prove the defendant's intent that the circumstances
be such that death or serious injury might occur. See State v.
Johnson, 181 Ariz. 346, 350, 890 P.2d 64 l, 645 (App.1995);
State v. Greene, 168 Ariz. 104, 105--06, 811 P.2d 356, 35758 (App.1991 ). Other jurisdictions have similarly interpreted
such clauses. See People v. Sargent, 19 Cal.4th 1206, 8 I
Cal.Rptr.2d 835, 970 P.2d 409, 418 ( 1999) (California's
circumstances clause" does not provide that a defendant must
'know or reasonably should know that his or her actions occur
under circumstances or conditions likely to produce great
bodily harm or death.' " ( quoting Cal.Penal Code§ 273 a)); cf
Williams v. State, 100 Md.App. 468, 641 A.2d 990, 992-93
(Md.Ct.Spec.App.1994) (whether circumstances in reckless
endangerment are likely to result in serious physical injury
or death is an objective inquiry). "[C]ircumstances likely to
produce death or serious physical injury," unlike the abuse
itself, either exist or do not exist. This Court has similarly

WI:

r

AW

ll

I

) {I

!

I

l I

,r 73 Finally, Payne claims that because the circumstances
clause is an element of the crime that enhances punishment
and appears in the text defining the offense, the legislature
must have intended for it to have a mens rea requirement.
We disagree. It is the level of intent that enhances the offense
level, not the existence of"circumstances." See A.R.S. § 133623(A). As such, the court's instructions were correct.

2. Count 2: insufficiency ofevidence ofAriana's broken bones

1 74 Payne argues that the State presented insufficient
evidence to prove that he "knowingly or intentionally ...
caus[ed] or permitt [ed] [Ariana's] bones to be broken under
circumstances likely to cause serious injury or death." He
argues that broken bones are not themselves serious physical
injuries, but rather, quoting State v. George, 206 Ariz. 436,
441 ,r 9, 79 P.3d 1050, 1055 (App.2003), asserts that the
injuries must be "more than the usual temporary impairment
caused by the fracture of a body part." Therefore, he claims
that the State failed to show that Ariana's broken bones
occurred in circumstances likely to result in serious injury or
death.

~

II

18a

Ill

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

175 Payne's argument rests on the assumption that, to prove
a violation of § 13-3623(A)(l ), the State had to prove that
broken bones are serious injuries or that breaking bones or
permitting bones to be broken caused serious physical injury
or death to Ariana. That is not the case. Instead, the State had
to prove only that Payne caused or permitted abuse or injuries
-here, broken bones--to occur in circumstances likely to
13-3623(A), "serious
cause serious injury or death. In
physical injury" is used only to describe circumstances that
must exist when the abuse occurs. See **1262 *507
Johnson, 181 Ariz. at 350, 890 P.2d at 645 (interpreting
"likely" as "probable," upholding conviction under § 133623(A)(l) based on circumstances that may cause serious
injury, rather than actual serious injury); State v. Styers, 177
Ariz. 104, 110, 865 P.2d 765, 771 (1993) (noting that a
"person commits child abuse if 'under circumstances likely
to produce death or serious physical injury,' he causes a child
to suffer physical injury or abuse").

(upholding child abuse conviction, relying partly on victim's
malnourishment). 4
4

*

1 76 Payne secondarily asserts that the State presented
insufficient evidence to show that he intentionally or
knowingly broke Ariana's bones or permitted them to be
broken while she was in his care because the breakages
could have occurred before he started caring for her or
after her death. We review the sufficiency of evidence to
determine whether "substantial evidence exists to support the
jury verdict." State v. Stroud, 209 Ariz. 410, 411 1 6, 103
P.3d 912,913 (2005). Substantial evidence is proof, viewed in
the light most favorable to sustaining the verdict, that would
allow reasonable persons to find a defendant guilty beyond a
reasonable doubt. State v. Bearup, 221 Ariz. 163, 167116,
211 P.3d 684,688 (2009); see State v. Roque, 213 Ariz. 193,
218193, 141 P.3d 368, 393 (2006) (viewing facts favorably).
1 77 Substantial evidence shows that Payne broke or
permitted bones to be broken. Evidence was presented that
the children were seen outside, playing and seemingly well,
when they first came to stay with Payne. At trial, three experts
testified that Ariana's bones, given their differing states of
healing, had likely been broken when Ariana was in Payne's
care, although the experts could not establish the precise time
of any injury. Moreover, Gonzales testified that Payne stated
that he did not seek help for the children because he feared
being arrested for abuse. This Court has found knowledge
or intent where the defendant knew that the victim needed
medical attention, but chose not to act. See State v. Mott, 187
Ariz. 536,543,931 P.2d 1046, 1053 (1997); see also State v.
Poehnelt, 150 Ariz. 136, 141, 722 P.2d 304,309 (App.1985)

WE lLAW r

tl

Because sufficient evidence supports the conviction for
Count 2, we do not address Payne's argument that his
conviction for felony murder must be overturned because
it would be unclear whether the jury was unanimous on
felony murder if the evidence did not support Count 2.
Moreover, the jury unanimously found felony murder
as to Tyler based upon its finding of guilt on Count
6, suggesting that it would have similarly unanimously
found felony murder as to Ariana based solely upon
Payne's conviction on Count 3, discussed below.

1

78 Sufficient evidence was also presented that the
circumstances existing when the abuse occurred were likely
to cause serious injury or death. Ariana's multiple and serious
injuries occurred while she was being punished by being
locked in the closet and not being fed or cared for. This
evidence is sufficient to support the jury's finding that the
injuries occurred under circumstances likely to cause serious
injury or death.

3. Potential for non-unanimous verdicts

1 79 Payne next argues that he was deprived of a unanimous
verdict regarding the child abuse charges because the jury was
not required to agree on which act caused each type of abuse.
180 The State charged Payne with three counts of child abuse.
Count 2 charged Payne with knowingly or intentionally
causing or permitting Ariana's bones to be broken under
circumstances likely to cause death or serious physical
injury. Count 3 alleged that Payne knowingly or intentionally
caused or permitted Ariana's health to be endangered under
circumstances likely to cause death or serious physical injury
by failing to seek medical attention for Ariana or allowing
her to starve to death. Count 6 alleged the same as Count
3 with respect to Tyler. Payne did not seek clarification of
the indictment or object to any count in the indictment on
grounds that the indictment itself was duplicitous, but did
argue, after the close of the evidence, that the State should
have been required to specify which act it relied upon to prove
each count because permitting evidence of multiple acts to
satisfy a single charge presented duplicity issues. Because the
objection came too late to permit correction of the alleged
defects, we review *508 **1263 for fundamental error. See
Dann III, 220 Ariz. at 367 1 76, 207 P.3d at 620.

19a

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

(upholding assault conviction where two assaults occurring
as part of a continuous course of conduct were charged in one
count). Thus, the jury here was not required to unanimously
agree on the manner of committing child abuse.

1 81 A criminal defendant is entitled to a unanimous verdict.
Id. at 367179, 207 P.3d at 620 (quoting Ariz. Const. art. 2, §
23). If an indictment is facially valid, but the state introduces
evidence of several acts, each of which might satisfy the
charge, the risk of a non-unanimous verdict is presented.
See State v. Davis, 206 Ariz. 377, 3901 61, 79 P.3d 64, 77
(2003). As we observed in Dann III, however, as long as
only one charge is alleged in a count of an indictment, jurors
may "reach a verdict based on a combination of alternative
findings." 220 Ariz. at 3671 79, 207 P.3d at 620; cf State v.
Gomez, 211 Ariz. 494,498116 n. 3, 123 P.3d 1131, 1135
n. 3 (2005) (noting that a 'jury need not be unanimous as to
the theory of first degree murder as long as all agree that the
murderwascommitted"); Statev. Tucke,; 205Ariz.157, 166671148-51, 68 P.3d 110, 119-20 (2003) (to same effect).

1 86 Payne was charged with a count of child abuse by
causing or permitting bones to be broken. This is a discrete
method of committing child abuse under § 13-3623(A).
Payne had notice of the charge and defended against all acts
by claiming that he did not break or permit breakage of any
bones. The charge and acts constituting it were sufficiently
specific that he could later assert double jeopardy. See Stale
v. Ramsey, 211 Ariz. 529, 533-3419, 124 P.3d 756, 760-61
(App.2005) .
1 87 Count 2 was thus not duplicitous.

a. Count 2

b. Counts 3 and 6

1 82 Count 2 charged Payne with knowingly or intentionally
causing or permitting Ariana's bones to be broken in
circumstances likely to cause death or physical injury. Payne
argues that Count 2 was duplicitous as presented at trial
because it permitted the jury to find him guilty if he either
broke Ariana's bones or permitted someone else to break
them.

1 88 Counts 3 and 6 alleged that Payne caused or permitted
Ariana and Tyler's health to be endangered by failing to seek
medical attention for them or allowing them to starve to death.
Payne argues that those counts were duplicitous because he
could be found guilty based on two separate acts: failing to
seek medical attention "and/or" starving the children to death.

1 83 We disagree that this rendered the charge duplicitous.
Count 2 did not charge multiple crimes in a single count;
rather it charged a single crime-abusing Ariana by breaking
her bones or permitting them to be broken-that could be
committed in multiple ways.

1 89 Payne argues that failing to feed and failing to
seek medical attention are separate acts that should have
been charged separately because one is active and one is
passive, citing State v. Leal, 104 N.M. 506, 723 P.2d 977
(N.M.App.1986) . We find this unpersuasive because both
involve the failure to do something and are thus passive.

1 84 Payne argues that Count 2 nonetheless subjected him to
the danger of a non-unanimous verdict by allowing jurors to
find him guilty despite potential disagreement regarding his
responsibility for individual acts. But Payne was aware of the
existence of multiple fractures and yet did not request that the
State be required to elect one to rely upon until after evidence
had closed.

190 Moreover, each count of the indictment charges only one
crime of child *509 **1264 abuse, essentially by neglect.
Thus, even if the jury believed Payne's argument that he
tried to feed the children but they did not wish to eat or
were not able to eat, his failure to seek medical attention
also constituted abuse under the statute. Payne admitted to
police that he did not seek medical care for the children
because he was afraid he would be charged with child abuse,
and he presented no evidence or argument at trial that he
attempted to seek such help. Because he was not entitled to
a unanimous verdict on the manner in which the act was
performed, Encinas, 132 Ariz. at 496,647 P.2d at 627, Counts
3 and 6 were not duplicitous. Even ifan error did occur, Payne
was not prejudiced-the failure to seek medical care itself

1 85 Indictments need not specify the precise act constituting
the crime if "there is no reasonable basis" for distinguishing
multiple acts. State v. Klokic, 219 Ariz. 241, 246 1 25, 196
P.3d 844, 849 (2008) . In such a case, "the defendant is not
entitled to a unanimous verdict on the precise manner" in
which an act is committed. State v. Encinas, 132 Ariz. 493,
496, 647 P.2d 624, 627 (1982); see also State v. Counterman,
8 Ariz.App. 526, 531-32, 448 P.2d 96, 101-02 (1968)

WESTLAW

d

20a
'

I

ll

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

satisfied the charge, and no reasonable jury could have found
that Payne was not guilty of child abuse under this theory.

findings, the jurors were not misled and there was no
reversible error.

4. Jury instructions andverdictforms

1 93 Payne argues that the evidence was insufficient to prove

H. Sufficiency of Evidence for First Degree Murder

that he murdered his children with premeditation. We review
the sufficiency of evidence to determine whether "substantial
evidence exists to support the jury verdict," viewing the facts
in the light most favorable to sustaining the verdict. Stroud,
209 Ariz. at 41116, 103 P.3d at 913.

1 91 Payne argues that the trial court erred by instructing
on the child abuse theory of causing physical injury because
the State did not allege that type of abuse. At the close of
evidence in the guilt phase, over Payne's objection, the trial
court combined the instructions for all three counts of child
abuse:

1 94 A person commits first degree premeditated murder if,
"[i]ntending or knowing that the person's conduct will cause
death, the person causes the death of another person ... with
premeditation." A.R.S. § 13-1105(A)(l). " 'Premeditation'
means that the defendant acts with either the intention or
knowledge that he will kill another human being, when such
intention or knowledge precedes the killing by any length of
time to permit reflection." State v. Thompson, 204 Ariz. 4 71,
475 1 12, 65 P.3d 420, 424 (2003) (quoting A.R.S. § 131101(1)).

The crime of intentional or knowing child abuse requires
proof that, under circumstance[s] likely to produce death
or serious physical injury, the defendant did one of the
following:
One, intentionally or knowingly causing the child to suffer
physical injury; or
Two, having the care or custody of a child[,] intentionally
or knowingly causes or permits the person or health of the
child to be injured; or

1 95

Sufficient evidence in this case supports the jury's
finding that Payne intentionally abused his children and later
decided to take their lives. Gonzales testified that while *510
**1265 Ariana and Tyler were initially placed in the closet
only while Payne was away from home and for disciplinary
purposes, after about a month, Payne left them in the closet
permanently, feeding them irregularly, then not at all. They
died soon after. Thus, it was reasonable for jurors to infer that
Payne's intentions changed. Therefore, there was sufficient
evidence to support the jury's finding of premeditated murder.

Three, having the care or custody of a child[,] intentionally
or knowingly causes or permits the child to be placed in a
situation where the person or health of the child is in danger.
In order to determine that the defendant committed the
crime of intentional or knowing child abuse[,] it is not
necessary that all 12 of you agree on the particular manner
in which the crime was committed. However, it is necessary
that each of you determine that the defendant committed
child abuse in at least one of the three possible manners set
forth above, and that it was under circumstances likely to
cause death or serious physical injury.
When explaining the verdict forms, the court also combined
all three methods of child abuse in each count. For example,
the verdict form for the child abuse counts for breaking
Ariana's bones included all three methods of committing child
abuse under the statute, even though the indictment only
alleged the "cause or permit the person or health of the child
to be injured" variation. The jury found Payne guilty of all
three counts.

I. Juror Question During Deliberations
During deliberations in the guilt phase, the jury sent
the judge a note asking whether there was an "advantage to
having a unanimous decision on guilt" on both felony murder
and premeditated murder theories. Payne argues that the trial
court committed reversible error by not granting his mistrial
motion following this question, asserting that it suggested that
the jurors had viewed extraneous information. We review a
trial court's rulings on motions for mistrial based on juror
misconduct for abuse of discretion. Cruz, 218 Ariz. at 163 1
67--68, I 8 I P.3d at 210.

1 96

1 92 But the instructions here were followed by verdict forms
specifying the allegations satisfying each count. Because
these forms properly instructed the jury on the required

w

w

{I

I·

I.)

1 97 After the question was relayed to the judge, Payne
was consulted and asked the court to instruct the jurors to
resolve that question themselves. The court adopted part of
I\

II

21a

l

,v

II I

r

I•

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

Payne's requested instruction, telling the jurors to resolve the
question themselves, "based upon the instructions, evidence,
and arguments you have heard and received." Before so
instructing the jury, the court asked whether the defense
objected. The defense responded "no." The next day, Payne
moved for a mistrial, arguing that the question showed
that the jury considered extra-judicial information because it
suggested that the jurors were split on the theory and traded
votes to ensure a "solid" conviction. The trial court denied the
motion.

1 lOl Payne alleges that Juror 28 made several statements
during trial that raised questions about her impartiality. In
a conference in chambers, another juror said that Juror 28
mocked witnesses and complained about defense witnesses.
The juror was concerned because, while Juror 28 made the
comments "[u]nder her breath," the reporting juror thought
they were ''loud enough to where there's the possibility of the
prosecution" or a detective at counsel table hearing *511
**1266 her. Counsel for the State denied hearing more than
"exasperated sighs, from both sides," and stated the detective
had not heard anything either.

1 98 Payne does not point to any indication, apart from the
question itself, that the jurors received extraneous information
or that any other misconduct occurred. Our cases ordering
a new trial have focused on stronger reasons to believe that
jurors received extrinsic evidence. See, e.g., State v. Glover,
159 Ariz. 291, 293, 295, 767 P.2d 12, 14, 16 (1988) Uury
foreman submitted affidavit and testified that two jurors
consulted outside sources and shared information); State v.
Mcloughlin, 133 Ariz. 458, 460----61, 652 P.2d 531, 53334 (1982) (during deliberations "one juror was told by an
unidentified third party that if appellant was found not guilty
by reason of insanity, he would go free").

1 102 Although he did not ask to question Juror 28, Payne
asked the court to designate her as an alternate and excuse her,
citing concerns that she was disruptive and inappropriately
sharing opinions. The court denied these requests and instead
reread the admonition to the jury.
1 103 Judges must respond to a claim of juror misconduct
in a manner "commensurate with [its] severity." State v.
Miller, 178 Ariz. 555, 557, 875 P.2d 788, 790 (1994). Here,
the complaining juror said that Juror 28's comments were
annoying, but they did not reveal that she was biased or
had made up her mind before hearing all the evidence.
Neither the State nor the defense heard the comments, and no
evidence shows that other members of the jury heard them.
In these circumstances, the rereading of the admonition was
a response commensurate with the severity of the alleged
misconduct. Therefore, the trial judge did not abuse his
discretion by refusing to strike Juror 28 or designate her as
an alternate.

1 99 Nor did the trial court err in responding to the jury's
question. The court consulted both parties and both agreed
to the proposed response. Payne further argues that the
instruction to consider evidence "received" did not explicitly
limit the jurors to considering only evidence admitted. We
do not believe a reasonable juror would have inferred any
distinction between "received" and "admitted" in this context.
The trial court did not abuse its discretion.

1 104 Payne now argues that a mistrial should have been
granted. We review this decision for fundamental error. See
Henderson, 210 Ariz. at 567119, 115 P.3d at 607. As it was
not an abuse of discretion to refuse to strike Juror 28, it was
not fundamental error to not order a mistrial based on her
conduct.

J. Juror Bias
1 100 Payne argues that the trial court abused its discretion
by denying his motion to strike Juror 28 for bias or, in the
alternative, to designate her as an alternate. "The trial court,
which has the opportunity to observe the prospective juror's
demeanor and the tenor of his answers, is in a position to
determine first hand whether a juror can render a fair and
impartial verdict." Chaney, 141 Ariz. at 303, 686 P.2d at
1273 (internal quotation marks and citations omitted). Thus,
we review a trial court's ruling on juror misconduct and the
decision on whether to strike for an abuse of discretion. State
v. Moore, 222 Ariz. 1, 10 137,213 P.3d 150, 159 (2009);
Dann III, 220 Ariz. at 3701106, 207 P.3d at 623. We presume
that jurors are impartial absent evidence to the contrary. See
Lockhart v. McCree, 476 U.S. 162, 184, 106 S.Ct. 1758, 90
L.Ed.2d 137 (1986).

WESTI AW

C

1

~

lMI

[·1

l

)

I

K. Prosecutorial Misconduct
1 105 Payne contends that the prosecutor committed
misconduct by vouching for a witness, suggesting through
facts not in evidence that Payne was a "bad man," improperly
leading witnesses, improperly extracting a diagnosis from a
defense expert, and commenting on Payne's invocation of his
right to remain silent. Payne claims these acts constituted
individual and cumulative prosecutorial misconduct.

I

22a

lf

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

, 106 In reviewing prosecutorial misconduct claims, we first
review each allegation individually for error. See Roque, 213
Ariz. at 228, 154, 141 P.3d at 403. We will find an error
harmless ifwe can say beyond a reasonable doubt that it did
not affect the verdict. See, e.g., State v. Nelson, 229 Ariz.
180, 189 , 36, 273 P.3d 632, 641, cert. denied, U.S.
- - , 133 S.Ct. 131,184 L.Ed.2d 63 (2012). We then consider
whether the cumulative effect of individual allegations "so
infected the trial with unfairness as to make the resulting
conviction a denial of due process." State v. Hughes, 193 Ariz.
72, 79 , 26, 969 P.2d 1184, 1191 ( 1998) (quoting Donnelly v.
DeChristoforo, 416 U.S. 637, 643, 94 S.Ct. 1868, 40 L.Ed.2d
431 (1974)).

1. Vouching

, 107 In closing argument, Payne's counsel argued that
Gonzales was more culpable than Payne, yet she was allowed
to plead guilty to second degree murder. Payne argued this
showed that he was guilty of, at most, second degree murder.
In rebuttal, the State argued that it was inappropriate to
use Gonzales's plea agreement as a basis for comparing
culpability:
Reina Gonzales was given a plea agreement in this case
so the State could provide you with testimony about what
happened to those children, what really happened to those
children.
The Judge is not going to give you an instruction saying if
you find Reina Gonzales was given a second degree plea,
therefore you can assign the defendant the same culpability
that Reina Gonzales was given through the plea.
The only thing that you get to consider that plea agreement
for is whether or not it impacts Reina Gonzales'[s]
credibility or bias in this case. Not to compare guilt, not
[to] compare culpability, and not to somehow use it as a
measure of this man's responsibility in the deaths of his
children.
, 108 Payne claims that the State's argument improperly
vouched for Gonzales's testimony by referring to ''what really
happened." Because Payne objected at trial, we review to
determine whether the prosecutor's conduct was improper and
for harmless error.

**1267 *Ariz.512 , 109 Prosecutorial vouching occurs if,
among other things, "the prosecutor suggests that information

WET AW

0

not presented to the jury supports" the evidence, testimony,
or witness. State v. Vincent, 159 Ariz. 418, 423, 768 P.2d
150, 155 (1989). When improper vouching occurs, the trial
court can cure the error by instructing the jury not to consider
attorneys' arguments as evidence. See Newell, 212 Ariz. at403
,,, 67-68, 132 P.3d at 847; State v. Lamar, 205 Ariz. 431,441
, 54, 72 P.3d 831, 841 (2003 ).
, 110 The prosecutor's comment that Gonzales would
testify about ''what really happened," considered alone,
could be interpreted to suggest the prosecutor's knowledge
that Gonzales was telling the truth, thereby improperly
bolstering Gonzales's testimony by lending the "prestige" of
the government. See Vincent, 159 Ariz. at 423, 768 P.2d at
155. But the prosecutor immediately followed these three
words by discussing the jurors' duty to evaluate Gonzales's
truthfulness.
, 111 A prosecutor may elicit testimony that a witness agreed
to testify truthfully as part of a plea. See Lamar, 205 Ariz.
at 441, 52, 72 P.3d at 841; State v. McCall, 139 Ariz. 147,
159, 677 P.2d 920, 932 (1983) . Moreover, in a fact situation
much like this one, we found no error in a prosecutor's
passing statement that the witness told police "exactly what
happened." State v. King, 180 Ariz. 268, 276-77, 883 P.2d
1024, 1032-33 (1994).

, 112 Here, Payne referenced Gonzales's plea agreement to
encourage the jurors to compare her culpability to Payne's.
The prosecutor's response attempted to clarify that the
jurors should not compare culpability based on Gonzales's
plea agreement, but could consider the plea in determining
Gonzales's credibility and assessing her veracity. This was a
reasonable response to Payne's argument.
, 113 Additionally, the trial court instructed the jurors that
the lawyers' arguments were not evidence and that they
should consider each witness's motive or prejudice. These
instructions were sufficient to dispel any taint if vouching
occurred. See Newell, 212 Ariz. at 403, 68, 132 P.3d at 847.
We find any vouching error harmless.

2. Innuendo
, 114 Payne claims that the trial court erred by denying his
motion for a mistrial after the prosecutor improperly implied
that he filed a CPS report that triggered an investigation of the

23a

l

I

I

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

children's mother, Jamie Hallam. We review the trial court's
ruling for abuse of discretion. Id. at 402161, 132 P.3d at 846.
1115 In 2005, CPS investigated Hallam for substance abuse.
During re-direct, the prosecutor asked Hallam if she knew
who had reported her drug use to CPS. When she replied
that she did not, the prosecutor asked: "For all you know,
that could have been Chris Payne?" She replied that she did
not know. Payne objected and moved for a mistrial because
he claimed that "not a shred of evidence" suggested that he
made the report. The State responded that Payne's statement
to police that he got involved with the children because of
Hallam's drug use provided a good faith basis for the question.
The trial court denied the motion.
1 116 Counsel's "[s]uggestion by question or innuendo of
unfavorable matter which is not in evidence and which would
be irrelevant, or for which no proof exists[,] is improper
and can constitute misconduct." Pool v. Superior Court
(Fahringer), 139 Ariz. 98, 103,677 P.2d 261, 266 (1984) .
1 117 The prosecutor did not commit misconduct by asking
if Payne filed the report with CPS because in his post-arrest
statement, Payne said several times that the children were
malnourished when they arrived at his home and that he
suspected Hallam of leaving them with strangers while she
was high on methamphetamine. Based on these statements,
and absent other information to the contrary, the State had a
good-faith basis for the question. Moreover, we fail to see how
possibly reporting Hallam constitutes evidence "unfavorable"
to Payne. Thus, the trial court did not abuse its discretion by
denying Payne's mistrial motion.

1 119 Leading questions suggest an answer. State v.
Simoneau, 98 Ariz. 2, 5, 401 P.2d 404, 407 (1965).
Ordinarily, courts should not permit leading questions on
direct examination, Ariz. R. Evid. 61 l(c), although such
questions may be permitted when doing so will serve "the
ends of justice," Joseph W King, 66 Ariz. at 49, 182
P.2d at 919. No error occurs, however, when the answer
suggested "had already been received as the result of proper
questioning." State v. Garcia, 141 Ariz. 97,101,685 P.2d 734,
738 (1984).
1 120 The questions that Payne complains of here took
various forms. Some were leading; others, although not
leading, suggested facts not in evidence. But the facts
assumed in these questions could have been, and many
were, elicited through proper questioning or were otherwise
inconsequential. Other questions were not improper for any
reason Payne raises on appeal. Payne presented no evidence
that the prosecutor deliberately misframed questions, and
many of Payne's objections were sustained, after which the
prosecutor rephrased the question. Furthermore, the trial court
instructed the jurors not to consider responses to any question
for which it had sustained an objection. The trial court
sustained several objections and issued curative instmctions.
We assume the jurors followed those instructions, see Stale
v. Prince, 204 Ariz. 156, 158 1 9, 61 P.3d 450, 452 (2003),
and did not consider the questions lu which ubjecliuns were
sustained. In light of these circumstances, and in the absence
of any showing of intentional misconduct, no reversible error
occurred.

4. ASPD "diagnosis" in penalty phase
*513 **1268 3. Improper questioning

1 118 During the prosecutor's direct examination of
witnesses, Payne objected to several questions as leading
or assuming facts not in evidence. He asserts, with little
analysis, that the prosecution's questioning violated his due
process rights, deprived him of a fair trial, and constituted
prosecutorial misconduct. We ordinarily begin by reviewing
the trial court's ruling on the objections for abuse of discretion.
See State v. (Joseph W) King, 66 Ariz. 42, 49, 182 P.2d
915, 919 (1947) . But Payne does not analyze the questions
individually, instead suggesting a pattern of prosecutorial
misconduct that denied him due process. Thus, we analyze
this line of questioning as a whole.

SLAW '

1, I

I '

, 121 In the mitigation portion of the trial, Payne called
Dr. Thomas Reidy to testify that Payne had risk factors for
irregular psychological development, which might have made
him more apt to abuse children. Payne claims that, on crossexamination, the State improperly elicited a diagnosis of
Anti-Social Personality Disorder ("ASPD") from Dr. Reidy.
1 122 To prepare to testify, Dr. Reidy reviewed records and
transcripts of interviews, but he did not evaluate Payne or
interview anyone familiar with him. After Payne's direct
examination of Dr. Reidy, the trial court denied Payne's
objection to the State questioning Dr. Reidy about the criteria
for ASPD or whether Payne met these criteria. The court,
however, warned the State not to reference a "diagnosis"
of ASPD. On cross-examination, the State asked Dr. Reidy

24a

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

whether Payne satisfied the criteria for ASPD to prove an
alternative explanation for Payne's behavior.
1 123 The prosecution may introduce any evidence in the
penalty phase "that is relevant to any of the mitigating
circumstances ... , regardless of its admissibility under the
rules governing admission of evidence at criminal trials."
A.R.S. § 13-75l(C); see also State v. VanWinkle, 230 Ariz.
387, 394 1 28, 285 P.3d 308, 315 (2012). prosecutor's
questioning here rebutted Payne's claims that he had a number
of risk factors for being an abusive parent, which might have
caused him to be abusive, by showing alternative explanations
for Payne's conduct.
1124 Payne relies on State v. Lundstrom, 161 Ariz. 141, 146,
776 P.2d 1067, 1072 (1989), and State v. Moody, 208 Ariz.
424, 461--6211157--64, 94 P.3d 1119, 1156-57 (2004), for
the proposition that the prosecution may not elicit a diagnosis
that is not in evidence. Payne's reliance is misplaced. In
Lundstrom, we held it improper for experts to testify to "facts
or data" if merely acting "as *514 **1269 a conduit for
another non-testifying expert's opinion." 161 Ariz. at 148,
776 P.2d at 1074; see also Moody, 208 Ariz. at 462 1 165,
94 P.3d at 1157 (to same effect). But the prosecutor did
not use Dr. Reidy as a conduit through which to present
another expert's opinion. Instead, she sought to elicit Dr.
Reidy's opinion that Payne showed factors consistent with
the criteria for ASPD. Moreover, Dr. Reidy did not give a
"diagnosis" of ASPD. Thus, the questioning did not constitute
misconduct. Because we find no error in the prosecutor's
cross-examination, Payne's Eighth Amendment arguments
also fail.

5. Comment on Payne's right to silence in opening statement

to a defendant's "protected silence," State v. Carrillo, 156
Ariz. 125, 128, 750 P.2d 883, 886 (1988), if jurors would
"naturally and necessarily perceive it to be a comment on the
defendant's failure to testify," State v. Rutledge, 205 Ariz. 7,
13 133, 66 P.3d 50, 56 (2003).

1 127 In her opening statement during the guilt phase, the
prosecutor told the jury, "you are going to hear from the
defendant himself. The interview that he gave to the police
officers on March 1, 2007. And you are going to hear that he
lied, too, in the beginning." In the next several sentences, the
prosecutor referred to things the defendant said "throughout
the interview." But then she started discussing what Payne is
"going to tell you." Payne argues that each of these comments
improperly directed the jury's attention to his exercise of his
right not to testify.
1 128 The State did not err in its opening statement by
referring to comments Payne made in the taped interview. See
Rutledge, 205 Ariz. at 14138, 66 P.3d at 57. The prosecutor's
comments about what Payne "is going to tell you" are a closer
call. Taken in context, however, they were not "calculated to
direct the jurors' attention to [Payne's] exercise of his fifth
amendment privilege" because they too referred to evidence
from the taped interview. See State v. McCutcheon, 159 Ariz.
44, 45, 764 P.2d 1103, 1104 (1988). As such, the prosecutor's
comments did not constitute reversible error and the trial
court did not abuse its discretion in denying Payne's mistrial
motion.

6. Comment on Payne's lack of emotion during trial

1 129 Payne argues that, in closing arguments, the prosecutor
improperly referred to Payne's lack of emotion during trial.
Because he did not object, we review for fundamental error. 5

1 125 Payne claims that the prosecutor improperly
commented on his right to silence by referring, in her opening
statement, to what Payne "is going to tell you." At the
conclusion of the opening statement, Payne moved for a
mistrial, which the court denied.
1 126 We review a trial court's ruling on a motion for
mistrial for abuse of discretion because the trial court is in
the best position to determine the effect of any inappropriate
statements. Newell, 212 Ariz. at 402 1 61, 132 P.3d at
846. But because "the protection against self-incrimination
includes freedom from adverse consequences flowing from
defendant's exercise of his right," it is reversible error to refer

W ll W •

5

Payne claims that he preserved this issue by objecting to
comments the State made in its opening statement about
his taped interview. But this objection was unrelated to
the as yet unmade references to his demeanor at trial.
Payne's objection thus did not preserve this issue.

1 130 In its guilt-phase closing arguments, the State compared
Payne's lack of emotion at trial to the excessive emotion he
displayed during his interrogation. We have not confronted
directly whether a prosecutor may ask jurors to consider
a defendant's affect at trial, but most courts that have
addressed this issue have found such comments improper.
See, e.g., United States v. Mendoza, 522 F.3d 482, 491

25a

11 f\J

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

(5th Cir.2008) (stating that "courtroom demeanor of a nontestifying criminal defendant is an improper subject for
comment"); United States v. Schute,; 813 F.2d 978, 981
(9th Cir.1987) (holding that, "in the absence of a curative
instruction," a comment on "off-the-stand behavior" violates
the *515 **1270 due process clause); United States v.
Pearson, 746 F.2d 787,796 (11th Cir.1984) (to same effect);
United States v. Carroll, 678 F.2d 1208, 1209-10 (4th
Cir.1982) (to same effect). But see Cunningham v. Perini,
655 F.2d 98 (6th Cir.1981) (per curiam) (upholding comments
because they referred to conduct and demeanor rather than
failure to testify).
1 131 The differing results in these cases turn on the
courts' views of the legitimate arguments on each side. We
urge courts and prosecutors to proceed cautiously in this
area, given its dubious relevance and potential to implicate
a defendant's right not to testify. We decline to set forth
an absolute rule that such statements are always improper,
however, preferring to let trial courts assess the totality of the
circumstances in each case. We caution that while the jury
may observe a defendant's demeanor, a prosecutor's reference
to the demeanor of a non-testifying defendant may draw
attention to the defendant's failure to testify and is based
on evidence not presented at trial and not covered by any
jury instruction. See Mendoza, 522 F.3d at 491. Although we
conclude that the State's comment here was improper, we do
not find fundamental error.

7. Question re lack of remorse in penalty phase

1 132 Payne claims that it was improper for the prosecutor
to ask Dr. Reidy whether lack of remorse is a characteristic
of ASPD. Payne objected and moved for a mistrial. The court
overruled the objection and denied the motion. We review the
trial court's ruling for abuse of discretion. Newell, 212 Ariz.
at 402161, 132 P.3d at 846.
1 133 The prosecutor's question here did not ask about
Payne's remorse, but rather asked whether lack of remorse
was a factor in determining ASPD. It was one of several
questions rebutting Payne's suggestion that risk factors in
his background led Payne to abuse his children. Thus,
although Payne did not raise remorse as a mitigating factor,
the questioning was relevant and not unduly prejudicial. It
therefore was not improper.

WE

LA

0

l,

r

I" 11

8. Cumulative error

1 134 Payne claims that the prosecutor's comments gave
rise to reversible cumulative e1Tor. In analyzing such issues,
we examine whether the cumulative effect of individual
allegations "so infected the trial with unfairness as to make
the resulting conviction a denial of due process." Hughes, 193
Ariz. at 79126, 969 P.2d at 1191 (quoting Donnelly, 416 U.S.
at 637, 94 S.Ct. 1868). Cumulative error warrants reversal
only if misconduct was "so pronounced and persistent that it
permeate[d] the entire atmosphere of the trial," id. (quoting
State v. Atwood, 171 Ariz. 576, 611, 832 P.2d 593, 628
(1992)), indicating that "the prosecutor intentionally engaged
in improper conduct and did so with indifference, if not a
specific intent, to prejudice the defendant," Roque, 213 Ariz.
at 228 1 155, 141 P.3d at 403 (internal quotation marks
omitted).

1 135 Payne has not shown misconduct that pe1meated the
trial and infected it with unfairness, and so we reject his claim
of cumulative error.

L. Aggravation Phase Jury Instructions
136 Payne challenges several sentencing instructions.
We review the trial court's decision to refuse a requested
instruction for an abuse of discretion, Johnson, 212 Ariz. at
431115, 133 P.3d at 741, and review de novo whether the
trial instructions as a whole correctly state the law, State v.
Bocharski, 218 Ariz. 476, 487147, 189 P.3d 403,414 (2008).

1

1. § 13-751(F)(8): "one or more other homicides"

1 137 Payne argues that the trial court erred by failing
to detail the elements required for the jury to find the (F)
(8) aggravating circumstance. The instruction given stated:
"the defendant has been convicted of one or more other
homicides, and those homicides were committed during the
commission of the offense." Payne correctly notes that this
instruction was insufficient because it fails to inform the
jurors that they must find a temporal, spatial, and motivational
relationship between the homicides. See **1271 *516
Dann lll, 220 Ariz. at 364157, 207 P.3d at 617. Because
Payne neither requested further instructions nor objected at
trial, however, we review for fundamental error. See State
v. Hargrave, 225 Ariz. 1, 14 1 47, 234 P.3d 569, 582
(2010). We have previously found harmless error when the

26a

'

I

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

temporal, spatial, and motivational relationship requirements
were not submitted to a jury if no jury could have found them
unsatisfied. See State v. Dann (Dann II), 206 Ariz. 371, 374
,r 11, 79 P.3d 58, 61 (2003) .

2. § 13-751(F)(6): "especially heinous, cruel or depraved
manner"

138 A conviction for multiple homicides, by itself,
does not satisfy the (F)(8) aggravator. Ellison, 213 Ariz. at
143 ,r 128, 140 P.3d at 926. "[T]he State must establish
beyond a reasonable doubt that the murders took place
during a 'continuous course of criminal conduct' and were
'temporally, spatially, and motivationally related.' " Moore,
222 Ariz. at 16 ,r 86, 213 P.3d at 165 (quoting Armstrong III,
218 Ariz. at 464 ,r 67, 189 P.3d at 391).

,r 142 Payne claims that the instruction given for the (F)(6)
aggravator was overbroad and insufficient because it led the
jury to believe a negligent state of mind was sufficient to
establish the (F)(6) factor. The court instructed that, to find the
especially cruel aggravating factor, the jury must find that "the
defendant intended, knew, or should have foreseen" that the
victims would suffer mental anguish or physical pain. Payne
did not object at trial, so we review for fundamental error. See
Hargrave, 225 Ariz. at 14 ,r 47, 234 P.3d at 582.

,r 139 Payne does not dispute that the murders were spatially

,r

,r

related, but argues that the State failed to prove temporal
proximity and motivational relationship.

,r

140 Payne asserts that as much as a week might have
passed between the deaths of Ariana and Tyler, and thus
the temporal proximity requirement is not met. We begin by
clarifying that the focus is on the temporal relationship of the
conduct causing the deaths rather than the deaths themselves.
For example, if a defendant shoots two victims during a
robbery, but one survives for a week, the temporal proximity
requirement is satisfied. Substantial evidence showed that
Payne locked his children in a closet and starved them to death
over several months. No reasonable jury could fail to find the
temporal requirement satisfied.

,r 141 Payne also argues that the motivational element is not
satisfied because "a motive was never established." But the
State presented evidence that the children were locked in a
closet and starved-the acts that eventually killed thembecause they bothered Gonzales, hindered Payne's work, and
were otherwise "inconvenient." No evidence suggested that
Payne killed each child for a different reason. See Ellison,
213 Ariz. at 144 ,r 130, 140 P.3d at 927 (motivational element
satisfied when defendant did not claim killing victims for
different reasons); see also Armstrong Ill, 218 Ariz. at 464
,r,r 68-70, 189 P.3d at 391 ("[t]he motives for killing each
victim need not be identical"; motivationally related when
defendant "hated" second victim and hate arose from motive
in killing first victim). Although the (F)(8) instruction given
was deficient, Payne has failed to show fundamental error
because no rational jury would have failed to find a temporal,
spatial, and motivational relationship between the murders of
Ariana and Tyler.

W

fLAW

1

(

1

1

II

I ,

143 We note initially that the expression "should have
foreseen" seems simply to have been used in lieu of the proper
phrase "should have known." Nonetheless, Payne correctly
observes that we held in State v. Carlson, 202 Ariz. 570,
582 ,r 44, 48 P.3d 1180, 1192 (2002), that the tort concept
of "foreseeability" is insufficient to support the finding of
the aggravating circumstance. But Carlson was analyzing the
mental state for the unobserved acts of an accomplice and is
therefore inapposite. Id. at 581-82 ,r 43, 48 P.3d at 1191-92.

,r 144 In this case, the State presented substantial evidence
that Payne locked his children in a closet to live in darkness
and filth, suffering from injuries while they slowly starved
to death, which he either knew or should have known would
*517 **1272 cause them to suffer mental anguish and
physical pain. This type of involvement differs from the
accomplice in Carlson who had no reason to believe her
victim would suffer. No reasonable jury could find that Payne
would not have known that the children would suffer as
they starved to death in the dark closet. Thus, although the
instruction was erroneous, no fundamental error occurred.

3. Enmund and Tison findings

,r

145 Payne argues that the trial court deprived him of his
constitutional rights by failing to require the jurors to make
an explicit finding that he "kill[ed], attempt[ed] to kill, or
intend[ed] that a killing [would] take place or that lethal force
[would] be employed" under Enmund v. Florida, 458 U.S.
782, 797, 102 S.Ct. 3368, 73 L.Ed.2d 1140 (1982), or that
he was a major participant in a crime and acted with reckless
indifference to human life under Tison v. Arizona, 481 U.S.
137, 158, 107 S.Ct. 1676, 95 L.Ed.2d 127 (1987). The trial
court did not instruct the jury to make this determination in

27a

l'I

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

the aggravation phase, and Payne did not object or ask for
the findings to be made. But he now claims this omission
constituted fundamental error.
1146 By statute, the jury must make all factual determinations
necessary to impose a death sentence. See A.R.S. § 13752(P). Payne argues that this includes explicit Enmund/Tison
findings.
1 147 The jurors unanimously convicted Payne of
premeditated murder, meaning that they found that he
personally intended to cause or knew his conduct would
cause the deaths of the children. Thus, there was no need
for a separate finding that he was a major participant in the
crimes. There was no fundamental error. Cf State v. Joseph,
230 Ariz. 296, 300 1 18, 283 P.3d 27, 31 (2012) (failure
to instruct on Enmund/Tison was not an abuse of discretion
where defendant was sole participant in murder). 6
6

In cases involving felony murder where an accomplice
is involved, trial courts should give the Enmund/Tison
instruction.

4. Voluntary intoxication consideration
1 148 Payne argues that the jury was unconstitutionally
prevented from considering his drug use as a defense to the
culpable mental state necessary for the (F)(6) aggravating
circumstance. In his closing argument in the aggravation
phase, Payne argued that his drug use prevented him from
having sufficient mental ability to intend to cause physical
pain or mental anguish. The State responded that voluntary
intoxication is not a defense to a culpable mental state. The
final instructions submitted to the jury noted that instructions
from previous phases still applied, which included an
instruction that voluntary intoxication is not a defense to a
crime involving a culpable mental state such as knowledge or
intent, but did not specifically address voluntary intoxication
from drug use in connection with the (F)(6) "heinous, cruel or
depraved" aggravator. Payne did not object to the instruction
or the State's argument. We thus review for fundamental error.
See Hargrave, 225 Ariz. at 14147, 234 P.3d at 582.
1 149 Section 13-503 provides that "[t]emporary
intoxication ... is not a defense for any criminal act or requisite
state of mind." The focus of the heinous and depraved
aggravator is the defendant's state of mind. See State v.
Womble, 225 Ariz. 91, 100 1 34, 235 P.3d 244, 253 (2010).

1

1

I

I

I

The statute therefore prohibits the jury from using voluntary
intoxication to negate intent-that is, the jury could not
consider voluntary intoxication as a basis for concluding
that the defendant lacked the state of mind for the (F)(6)
aggravating circumstance. CJ State v. Boyston, 231 Ariz. 539,
5501152, 54, 298 P.3d 887, 898 (2013) (concluding court did
not err by excluding evidence of voluntary intoxication on the
issue of premeditation).
,i 150 Payne claims, however, that he has a constitutional right
to rebut the (F)(6) aggravator with evidence of intoxication.
The Supreme Court has held that in the guilt phase there is
no due process violation when a state prohibits juries from
considering *518 **1273 voluntary intoxication. Montana
v. Egelhoff, 518 U.S. 37, 56, 116 S.Ct. 2013, 135 L.Ed.2d
361 ( 1996). Furthermore, the Eighth Amendment ensures that
defendants have the opportunity to argue that the intoxication
warranted leniency, which Payne was permitted to do in the
penalty phase. The trial court's instructions correctly stated
the law; thus, there was no fundamental error.

M. Consideration of Age of Victims
1 151 Payne argues that the jury twice considered the victims'
ages, once when finding the "heinous, cruel or depraved"
factor and again when considering the "age of the victim"
aggravator. But we have held that "[a] jury, like a sentencing
judge, may use one fact to find multiple aggravators, so
long as the fact is not weighed twice when the jury assesses
aggravation and mitigation." State 1( Velazquez, 216 Ariz.
300, 307,J 22, 166 P.3d 91, 98 (2007) . In its final instructions,
the court admonished the jury that "you may only consider
the age of the children once" in assessing aggravation and
mitigation. Absent evidence to the contrary, we presume the
jury followed the instructions. Id. 1 24.

1 152 Payne argues that there was insufficient evidence to
establish the factors that can make a murder cruel, heinous,
or depraved, leaving the age as the sole basis for proving
the aggravator. We have concluded, however, that substantial
evidence supported the jury's finding that the murders were
especially cruel. See supra 11142-44. Thus age was not the
sole factor supporting the jury's finding of that factor.

N. Mitigating Evidence
1 153 Payne argues that the trial court deprived him of a fair
trial by precluding some of his mitigation evidence during the
penalty phase. We review evidentiary rulings and discovery
sanctions for abuse of discretion. Armstrong III, 218 Ariz. at

28a

fJ

II

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

458120, 189 P.3d at 385; State v. Towery, 186 Ariz. 168, 186,
920 P.2d 290,308 (1996).

588, 858 P.2d at 1191. To dete1mine harmlessness, we assess
the effect of"the error in light of all of the evidence" presented
in the case. Id. We must be able to "say, beyond a reasonable
doubt, that the error did not contribute to or affect the verdict."
Id.

l. Dr. Riggan

1 158 After reviewing the record, we find the erroneous
preclusion of "good inmate" evidence harmless beyond a
reasonable doubt. We conclude, as we did in Bible, that "[i]f
the evidence against Defendant had been closely balanced,
strong, or even very strong, ... it would be impossible to say
beyond a reasonable doubt that the [precluded] evidence did
not affect the verdict.. .. Factually, however, this is a very
unusual case." Id. Virtually undisputed evidence established
that Payne locked his children in a closet and starved them
to death. We conclude beyond a reasonable doubt that any
evidence that Payne was a good inmate or that he incurred
no disciplinary infractions while incarcerated would not
have moved any juror to recommend leniency or otherwise
have affected any juror's decision regarding the appropriate
sentence. If improperly excluded mitigation evidence may
ever be considered harmless, surely this is the case.

1 154 Payne argues that the trial court erred by precluding Dr.
Biggan from testifying after Payne failed to timely disclose
her. Dr. Biggan is a psychologist who evaluated Payne in
November 2008. The defense did not disclose her report, but
the State discovered it after trial had begun. About two weeks
later, less than two days before the penalty phase began,
the defense disclosed Dr. Biggan as a mitigation witness.
On the State's motion, the trial court precluded Dr. Biggan's
testimony.
1155 Rule 15.7 of the Arizona Rules of Criminal Procedure
permits the court to sanction a party who fails to timely
disclose evidence. But any sanction must be proportional to
the violation and must have "a minimal effect on the evidence
and merits." Towery, 186 Ariz. at 186, 920 P.2d at 308. Factors
to consider include importance of the witness or evidence, the
degree of surprise, and bad faith. See id.

1 159 We thus conclude beyond a reasonable doubt that in
light of the horrific nature of Payne's crimes, the strength of
the aggravators proved, see State v. Hampton, 213 Ariz. 167,
185 190, 140 P.3d 950, 968 (2006) (stating that the "multiple
homicides aggravator is of extraordinary weight"), and the
weakness of the "good inmate" mitigator along with the other
mitigation evidence Payne presented, see Pandeli, 215 Ariz.
at 533182, 161 P.3d at 576 (affording good inmate evidence
little weight "because prisoners are expected to behave"), the
result would not have changed had this error not occurred.
If, as the dissent suggests, preclusion of the "good inmate"
mitigator requires reversal in this case, then preclusion of a
mitigator would require reversal in every case. Such a result
would effectively eviscerate harmless error review and mean
that exclusion of any piece of mitigation evidence, no matter
how minor, is structural error, which is contrary to our case
law. See Anderson I, 197 Ariz. at 323 1 22, 4 P.3d at 378
(explaining that erroneous evidentiary rulings are subject to
harmless error analysis); see also State v. Tucker, 215 Ariz.
298,316166, 160 P.3d 177, 195 (2007) (noting that "[w]e
have recognized structural error in only a few instances").

1 156 Given these factors, the court did not abuse its discretion
by precluding Dr. Biggan from testifying. Payne sought to
call her to show that he could not conform his conduct to the
law because of executive functioning deficiencies. Although
such evidence would be relevant to a statutory mitigating
circumstance, because he did not make an offer of proof,
Payne has not established the importance of Dr. Biggan's
evidence. Indeed, most of Dr. Biggan's report showed that
Payne had relatively normal functioning. And the surprise
was substantial as the disclosure two days before the penalty
phase deprived the State of the opportunity to interview Dr.
Biggan or obtain a rebuttal witness.

2. "Good inmate" evidence

1157 Payne sought to present evidence that he was a "good
inmate" as a mitigating factor. Finding good behavior in jail
irrelevant, the trial court precluded the evidence. We have
recognized that good inmate evidence can be mitigating, but
it is generally afforded little weight. See, e.g., State v. Pandeli,
215 Ariz. 514, 533182, 161 P.3d 557, 576 (2007) . Thus the
trial court *519 **1274 erred. Because Payne objected to
this error below, we must determine whether preclusion of the
good inmate evidence was harmless. See Bible, 175 Ariz. at

WESTLAW

u '

t

I I

I

0. Penalty Phase Rebuttal Evidence
1160 Payne contends that the trial court committed reversible
error in the penalty phase by permitting the State to elicit
information about his criminal history and admitting a DVD

II

29a

I

II

{\.

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

of Payne's jail visit with his father. This Court reviews
evidentiary rulings for abuse of discretion. Armstrong Ill, 218
Ariz. at 458 ii 20, 189 P.3d at 385. Evidence is admissible in
the penalty phase if it is relevant to rebut the primary thrust
of mitigating evidence and it is not unduly prejudicial. See
Hampton, 213 Ariz. at 180 ii 51, 140 P.3d at 963 .

concluded that the mitigation established by the defendant
was not sufficiently substantial to call for leniency." Id at 570
ii 51, 242 P.3d at 169 (quoting State v. Morris, 215 Ariz. 324,
341 ii 81, 160 P.3d 203, 220 (2007)).

A. Aggravating Circumstances

ii 164 The jury found three aggravating factors: (1) the
1. Payne's criminal history

ii 161 Payne's criminal history was relevant to rebut
Payne's assertion that "risk factors" made him a poor parent.
Recognizing the potential prejudice that may arise from
criminal history, the trial court directed the State not to elicit
details that would cause undue prejudice. The State elicited
reports of domestic violence, threats of violence, and deceit to
police. A summary was admitted into evidence. In light of the
limits it imposed, the trial court did not abuse its discretion.

2. Jai/house DVD

ii 162 The State introduced a DVD of Payne's father's
visit with Payne at the jail to rebut Payne's claim that he
was a caring person when not on drugs. Payne objected on
grounds of prejudice and irrelevance. The video focuses on
a discussion regarding Payne's son, Christopher Jr. It shows
Payne berating his father and demeaning family members
for not doing enough to ensure that Christopher is properly
cared for. Although the DVD was only marginally probative,
*520 **1275 playing it did not unfairly prejudice Payne
because, while it showed Payne yelling at his father, it also
showed that he cared about his son. See Ariz. R. Evid. 403
(balancing probative value and danger of unfair prejudice).
Therefore, the court did not abuse its discretion in allowing
it to be played.

III. ABUSE OF DISCRETION REVIEW

ii 163 Because the murders occurred after August 1, 2002,
we review the jury's finding of aggravating factors and the
imposition of a death sentence for abuse of discretion. A.R.S.
§ 13-756(A). Evidence is sufficient to support the finding
of an aggravating circumstance if reasonable persons could
conclude it establishes the circumstance beyond a reasonable
doubt. See State v. Gallardo, 225 Ariz. 560, 565 ii 15, 242
P.3d 159, 164 (2010). We must uphold a jury's decision
that death is appropriate if any "reasonable jury could have

TI A

J

I

I

murders were committed in an especially cruel, heinous,
or depraved manner, A.R.S. § 13-75l(F)(6); (2) one other
homicide was committed during the commission of the
offense, id § 13-751(F)(8); and (3) the victims were under
the age of fifteen and the defendant was over the age of
eighteen, id. § 13-75 I (F)(9) . Payne does not dispute the
third aggravator, but does dispute the first two. Because we
have earlier set forth our reasoning supporting the jury's
finding of the (F)(6) factor based on cruelty, see supra '11'11
142-44, we do not address heinousness or depravity. State
v. Gretz/er (Gretz/er II), 135 Ariz. 42, 51, 659 P.2d 1, 10
(1983) (noting that the (F)(6) aggravator is established if
the jury finds that the State proved cruelty, heinousness, or
depravity). Regarding the (F)(8) factor, because we found
that the jmy instructions did not constitute fundamental error
and that no reasonable jury could have found the additional
elements not satisfied, see supra iii/ 137-41, we reject these
arguments. The jury did not abuse its discretion in finding all
three aggravating circumstances.

B. Death Sentences
ii 165 We will overturn a jury's imposition of a death
sentence only if "no reasonable jury could have concluded
that the mitigation established by the defendant was not
sufficiently substantial to call for leniency." Cota, 229 Ariz.
at 153 ii 95, 272 P.3d at 1044 (citation and internal quotation
marks omitted). Payne alleged a variety of mitigating factors,
including a substantial number of"risk factors" for becoming
an abusive and neglectful parent, "insufficient protective
factors" to guide him in the right direction, a difficult
childhood, lack of family support, substance abuse, lack of
a felony criminal history, and the inability to appreciate
the wrongfulness of his conduct. The State presented some
rebuttal evidence and argued that the jury should give many
of Payne's mitigating factors little weight.

ii 166 Even ifwe assume Payne proved each mitigating factor
he alleged, the jury did not abuse its discretion by finding
them insufficient to watrnnt leniency.

30a

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

IV. CONCLUSION
-if 167 For the foregoing reasons, we affirm Payne's

convictions and sentences. 7
7

Payne listed fourteen claims "to avoid preclusion" and
the previous opinions rejecting those claims, which we
decline to revisit.

476 U.S. at 8, 106 S.Ct. 1669 (observing that state's
characterization of "exclusion as hmmless is implausible on
the facts before us"). Following that suggestion, many lower
courts have reviewed the exclusion of mitigating evidence
for harmless error. See, e.g., Campbell v. Bradshaw, 674 F.3d
578, 596--98 (6th Cir.2012) (applying harmless error review);
Fergusonv. Sec'yforDep'tofCon:, 580F.3d 1183, 1201-02
(11th Cir.2009) (same); B1yson v. Ward, 187 F.3d 1193, 1205
(10th Cir.1999) (same).
-if 171 Even assuming that harmless error analysis may apply

Chief Justice BERCH authored the amended opinion of the
Court, in which Justice PELANDER, Justice BRUTINEL,
and Justice TIMMER joined, and Vice Chief Justice BALES
concurred in part and dissented in part.

Vice Chief Justice BALES, concurring in part and dissenting
in part.
-if 168 I concur with the affirmance of the convictions and
with the majority's conclusions *521 **1276 regarding
the penalty phase rebuttal evidence and the preclusion of Dr.
Biggan's testimony. However, I respectfully dissent from the
majority's conclusion that the erroneous exclusion of Payne's
"good inmate" evidence was harmless.
-if 169 Payne sought to offer this evidence as mitigation and

objected to its exclusion at the penalty phase. The Eighth and
Fourteenth Amendments require that the sentencer in a capital
case be allowed to consider any relevant mitigating evidence,
Lockettv. Ohio, 438 U.S. 586,604, 98 S.Ct. 2954, 57 L.Ed.2d
973 (l 978), and it is well established that the defendant's good
behavior while incarcerated is relevant to mitigation. Skipper
v. South Carolina, 476 U.S. 1. 4-9, 106 S.Ct. 1669, 90 L.Ed.2d
1 (1986) (finding Lockett error where exclusion of evidence of
good behavior in prison "impeded the sentencing jury's ability
to carry out its task of considering all relevant facets of the
character and record of the individual offender").
-if 170 The State argues that the improper exclusion of this

evidence was harmless and therefore should not affect Payne's
death sentences. The United States Supreme Court has never
held that the exclusion of relevant mitigation evidence from
the penalty phase of a capital trial was harmless error,
although it has used language suggesting this possibility. See,
e.g., Hitchcockv. Dugger, 481 U.S. 393,399,107 S.Ct. 1821,
95 L.Ed.2d 347 (1987) (noting that improper exclusion of
mitigating evidence renders death sentence invalid absent
showing that error was harmless or had no effect); Skipper,

W Sr AW

in some circumstances involving the exclusion of mitigating
evidence, I cannot agree with my colleagues that the State has
met its burden of establishing that the error was harmless here.
My conclusion reflects the nature of both the State's burden
and the jury's sentencing determination.
-if 172 For an etTor to be harmless, the State must establish

beyond a reasonable doubt that the error did not contribute to
or affect the verdict. State v. Gunches, 225 Ariz. 22, 26 1 24,
234 P.3d 590, 594 (2010). "The inquiry ... is not whether, in
a trial that occurred without the error, a guilty verdict would
surely have been rendered, but whether the guilty verdict
actually rendered in this trial was surely unattributable to the
error." State v. Anthony, 218 Ariz. 439,446 -if 39, 189 P.3d 366,
373 (2008) (internal quotation marks omitted). Thus, in the
context of a jury's determination to impose a death sentence,
the State must establish beyond a reasonable doubt that the
error did not influence the verdict rendered by the jurors who
actually considered the evidence. See Gunches, 225 Ariz. at
26 -if -if 24-25, 234 P.3d at 594.
-if 173 Especially when, as occurred here, the trial court
erroneously excludes an entire category of mitigating
evidence, the State faces an almost insurmountable burden in
establishing that the error was harmless. Cf People v. Davis,
185 111.2d 317, 235 Ill.Dec. 918, 706 N.E.2d 473, 488 (1998)
(holding that the State did not meet its burden of showing
that the sentencing judge's refusal to consider all mitigating
evidence regarding good jail behavior was harmless); Irving
v. State, 498 So.2d 305, 316 (Miss.1986) (distinguishing
Skipper in case involving exclusion of evidence of good
behavior in prison in part because "no particular type of
evidence was excluded, as in Skippe1'-lhe exclusion was
more that of degree").
-if 174 The State's high burden reflects the nature of jury
sentencing in capital cases.

31a

State v. Payne, 233 Ariz. 484 (2013)
314 P.3d 1239, 674 Ariz. Adv. Rep. 5

[T]he determination whether mitigation is sufficiently
substantial to warrant leniency is not a fact question to be
decided based on the weight of the evidence, but rather
is a sentencing decision to be made by each juror based
upon the juror's assessment of the quality and significance
of the mitigating *522 **1277 evidence that the juror
has found to exist.
State ex rel. Thomas v. Granville (Baldwin), 211 Ariz. 468,
473 1 21, 123 P.3d 662, 667 (2005). "A mitigating factor that
motivates one juror to vote for a sentence oflife in prison may
be evaluated by another juror as not having been proved or, if
proved, as not significant to the assessment of the appropriate
penalty." Id at 473 118, 123 P.3d at 667.

1

175 Because our law never presumes that death is the
appropriate penalty, and each juror must, as a matter of
constitutional law, be allowed to assign such weight to
mitigating evidence as he or she believes appropriate, see id.,
I do not believe that we can uphold Payne's death sentence
by asserting that the exclusion of evidence about his behavior
while incarcerated could not have influenced the verdict

of any "reasonable" juror. Nor does the fact that we, in
cases involving our independent review, have characterized
"good inmate" evidence as a relatively weak mitigating factor
suggest that each juror here would have viewed such evidence
in the same way.

1

176 A jury that considers the excluded evidence along
with other mitigating evidence and the aggravating factors
may likely conclude that Payne should be sentenced to death .
But under our case law and the Eighth and Fourteenth
Amendments as interpreted by the Supreme Court, that
observation does not establish that the trial court's precluding
the sentencing jury from considering an entire category of
mitigating evidence was harmless. Accordingly, I would
vacate the death sentences and remand the case to superior
court for a new penalty phase in which Payne's proffered
good-inmate evidence should be admitted.

All Citations
233 Ariz. 484,314 P.3d 1239, 674 Ariz. Adv. Rep. 5
© 2021 Thomson Reuters. No claim to original U.S.
Government Works .

End of Document

w

(.

I

, ll

32a

4

U.S. CONSTITUTION,
AMENDMENT VI

In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime
shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his
U.S. CONSTITUTION,
AMENDMENT VIII

Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments inflicted.
U.S. CONSTITUTION,
AMENDMENT XIV, § 1

All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.

33a

